<html>
<title> - ASSESSING TERRORISM IN THE CAUCASUS AND THE THREAT TO THE HOMELAND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







   ASSESSING TERRORISM IN THE CAUCASUS AND THE THREAT TO THE HOMELAND

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 3, 2014

                               __________

                           Serial No. 113-61

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-780 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                          Washington, DC 20402-0001
















                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                   Brendan P. Shields, Staff Director
          Michael Geffroy, Deputy Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
         I. Lanier Avant, Minority Subcommittee Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Paul C. Broun, Georgia               Brian Higgins, New York
Patrick Meehan, Pennsylvania, Vice   Loretta Sanchez, California
    Chair                            William R. Keating, Massachusetts
Jason Chaffetz, Utah                 Bennie G. Thompson, Mississippi 
Vacancy                                  (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
               Mandy Bowers, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
                  Hope Goins, Minority Staff Director















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     3
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     4

                               Witnesses

Mr. Gordon M. Hahn, Ph.D., Analyst and Advisory Board Member, 
  Geostrategic Forecasting Corporation:
  Oral Statement.................................................     5
  Prepared Statement.............................................     8
Mr. William F. Roggio, Senior Fellow, Foundation for Defense of 
  Democracies:
  Oral Statement.................................................    14
  Prepared Statement.............................................    15
Mr. Andrew C. Kuchins, Ph.D., Director and Senior Fellow, Russia 
  and Eurasia Program, Center for Strategic and International 
  Studies:
  Oral Statement.................................................    20
  Prepared Statement.............................................    23

 
   ASSESSING TERRORISM IN THE CAUCASUS AND THE THREAT TO THE HOMELAND

                              ----------                              


                        Thursday, April 3, 2014

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:01 p.m., in 
Room 311, Cannon House Office Building, Hon. Peter T. King 
[Chairman of the subcommittee] presiding.
    Present: Representatives King and Higgins.
    Also present: Representative Jackson Lee.
    Mr. King. Good afternoon. The Committee on Homeland 
Security Subcommittee on Counterterrorism and Intelligence will 
come to order. Ranking Member Higgins is not here, but I have 
discussed that with him. In view of the votes that will be 
coming up sometime in the next 15 minutes or half-hour we are 
going to start the hearing and the Ranking Member will deliver 
his statement when he arrives.
    The subcommittee is meeting today to hear testimony 
examining terrorism in the Caucasus and the threat which that 
poses to the homeland. I recognize myself for an opening 
statement, which I will keep brief. I will include my full 
statement in the record.
    Caucasus are a volatile region, home to several extremist 
networks that are aligning themselves with al-Qaeda's global 
jihadist movement and spreading out to join conflicts outside 
their traditional homeland.
    Most alarmingly, we saw this with the Boston bombers, and 
showing that this conflict has inspired violent extremism 
around the world, including the U.S. homeland. Sadly, we 
approach the 1-year anniversary of the Boston Marathon 
bombings, that were at least partly inspired by the insurgency 
in the Caucasus and caused three deaths and more than 200 
serious injuries. Militants from the region have also 
reportedly fought in the Balkans, attacked U.S. forces in 
Afghanistan and Pakistan, and have taken leadership positions 
with terrorist organizations in Syria, such as the al-Nusra 
Front and the Islamic State of Iraq and the Levant.
    In this hearing, we will explore the threat that these 
groups pose both inside and outside the region, as well as 
examine the potential these networks may eventually pose to 
U.S. interests. Also, we will discuss the extent to which the 
Russian invasion of Crimea could impact any cooperation we have 
with the Russians regarding working against these terrorist 
groups. I look forward to the hearing, and I really want to 
thank the witnesses for being here.
    As I said, I will insert the remainder of my statement into 
the record, unless the Ranking Member objects.
    [The statement of Chairman King follows:]
                  Statement of Chairman Peter T. King
                             April 3, 2014
    The Caucasus are a volatile region home to several extremist 
networks that are aligning themselves with al-Qaeda's global jihadist 
movement, and spreading out to join conflicts outside their traditional 
homeland. Most alarmingly as we saw with the Boston bombers, this 
conflict has inspired violent extremism around the world, including the 
U.S. homeland.
    Sadly, we approach the 1-year anniversary of the Boston Marathon 
bombings that were at least partly inspired by the insurgency in the 
Caucasus that caused 3 deaths and more than 200 serious injuries.
    Militants from the region have also reportedly fought in the 
Balkans, attacked U.S. forces in Afghanistan and Pakistan, and have 
taken leadership positions with terrorist organizations in Syria, such 
as al-Nusra front and the Islamic State of Iraq and the Levant (ISIL). 
This hearing will explore the threat that these groups pose both inside 
and outside the region, as well as examine the potential threat these 
networks may eventually pose to United States interests.
    While al-Qaeda senior leadership is weakened, its brand and 
ideology is thriving and spreading. The Arab Spring, U.S. troop 
withdrawals in Iraq and Afghanistan and the civil war in Syria have 
breathed new life into al-Qaeda. Today we see elements of al-Qaeda 
operating in 16 countries, new jihadist media publications that 
leverage the latest social media technology to reach new audiences 
inspiring violence around the globe, and a growing army of jihadists 
gaining battlefield experience in the Syrian conflict.
    Instability in the ethnically-diverse Caucasus region has been an 
on-going problem for centuries: A simmering cauldron mostly contained 
within the borders of the Russian Federation. In recent years the 
Russian government's tactics have transformed the battle from a 
nationalist fight, with anti-Russian roots to a struggle based on 
Islamist ideology. This conflict is now showing signs of boiling over 
into unstable havens of terrorist activity in other parts of the world, 
and is threatening Europe and potentially the homeland.
    We also have to examine recent actions by Russia to annex Crimea, 
part of the sovereign nation of Ukraine. How will these actions and 
whatever additional hostile actions Russia may take in the region 
impact intent of the Caucasus Emirate?
    Chechens trained with al-Qaeda in Afghanistan prior to the 
September 11, 2001 attacks, and Osama bin Laden's network supplied 
fighters and funds to them during the second Chechen war.\1\ A Chechen 
now leads the ISIS forces in northern Syria and has masterminded a 
series of strategic defeats of Assad's troops.\2\
---------------------------------------------------------------------------
    \1\ Zachary Laub, ``Instability in Russia's North Caucasus Region'' 
Council on Foreign Relations, February 6, 2014, available at: http://
www.cfr.org/russian-federation/instability-russias-north-caucasus-
region/p9021.
    \2\ Alan Cullison, ``Meet the Rebel Commander in Syria that Assad, 
Russia and the U.S. All Fear'', Wall Street Journal, November 19, 2013, 
available at: http://online.wsj.com/news/articles/ 
SB10001424052702303309504579181962177007316.
---------------------------------------------------------------------------
    While the current threat to homeland from the Caucasus today 
appears minor, we must remember that we have made the mistake of 
underestimating the threat from terrorists in places like Afghanistan, 
Somalia, and Yemen before. The Obama administration designated the now-
deceased leader of the Caucasus Emirate, Doku Umarov, as a global 
terrorist in 2010 and the United Nations Security Council al-Qaeda 
Sanctions Committee has both Umarov and the Caucasus Emirate on its 
list of terrorists.
    As this subcommittee has stressed time and again, global terrorism 
does not require regiments of hardened soldiers with sophisticated 
weapons to have a lasting impact on society. Rather, a handful of 
committed murderers using household pressure cookers, or hijacking 
commercial airplanes can fundamentally change the course of history if 
they are disciplined and able to successfully conduct just one or two 
dramatic acts of violence. Al-Qaeda is an opportunistic ideological 
movement that thrives in ungoverned spaces such as the Caucasus.
    Fifteen years ago, most experts would not have forecasted an attack 
on the homeland to originate from Nigeria, Pakistan, or Yemen, but this 
committee's mandate is to examine emerging threats to homeland security 
and I look forward to hearing from today's witnesses regarding the 
state of terrorist groups in the Caucasus, and the export of jihadists 
from the region to Syria and other safe havens of terrorist activity 
that threaten the United States and the West.

    Mr. King. I am pleased to welcome the Ranking Member, Mr. 
Higgins, from New York and ask him if he wants to give an 
opening statement.
    Mr. Higgins. Thank you, Mr. Chairman, for holding this 
hearing. I will submit my opening statement for the record so 
that we can get right to the panel of expert witnesses.
    [The statement of Ranking Member Higgins follows:]
               Statement of Ranking Member Brian Higgins
                             April 3, 2014
    I look forward to hearing today's testimony as we continue to 
expand our knowledge of the threats, groups, and counterterrorism 
efforts within the Caucasus region. Several inter-ethnic conflicts that 
developed at the end of the Soviet Union remain unresolved and continue 
to fuel tensions within the Caucasus region.
    Specifically, a historical exclusionary political system and 
competition over land and resources has fueled conflicts in the multi-
ethnic Russian republics of the North Caucasus. While several 
extremists groups have emerged and then later disappeared as a result 
of these conflicts, one group, the Caucus Emirate, remains active 
today. The Caucasus Emirate has admitted to planning and executing 
numerous terror attacks in the Caucasus region and in Moscow since its 
founding in 2007. Two of the most deadly attacks claimed by the 
Caucasus Emirate have occurred in Moscow.
    On March 29, 2010, two suicide bombers killed 40 people and wounded 
more than 100 people after attacking two metro stations. On January 24, 
2011 a suicide attack at Moscow's busiest international airport killed 
35 people and wounded as many as 180 people. While all of the attacks 
executed by the Caucasus Emirates deserve our attention, I am 
especially concerned by these two attacks on high-impact transportation 
targets.
    As the Representative of the Buffalo-Niagara region, I have a keen 
awareness and concern for high-impact transit targets. Buffalo is home 
to the Peace Bridge, one of the busiest crossings at the Northern 
Border. Over 30 billion dollars of annual commerce travels through the 
Peace Bridge in Buffalo, Niagara region. An attack, similar to those 
carried out by the Caucasus Emirate in this area could be catastrophic.
    For this reason and many more, I remain disturbed that the Buffalo-
Niagara Region is not considered ``high-risk'' enough for State and 
locals in this area to receive funding under The Department of Homeland 
Security's Urban Area Security Initiative ``UASI'' program.
    Without UASI funding, the local law enforcement and emergency 
personnel do not have the ability to sustain the advancements they have 
made since 9/11. How can the Buffalo-Niagara region be expected to 
protect and respond to attacks and threats without the same basic 
funding provided to other, less utilized transit targets?
    I want to emphasize that many experts assert that based on known 
threats and capabilities an attack on the United States from the 
Caucasus Emirate or other Caucasian groups is unlikely as these groups 
are generally not preoccupied with the United States. However, the 
Caucasus Emirate has stated that it has no conflict with the United 
States and it will not harm any civilians, including Russians, yet this 
has not always been the case. Therefore, I believe it is fair to both 
consider and discuss this group and others in a global context, their 
roles within the larger global jihadi network.

    Mr. King. All right. I thank the Ranking Member. I also 
acknowledge that the gentlelady from Texas, Ms. Jackson Lee is 
here and remind all the Members of the committee that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             April 3, 2014
    I would also like to thank the witnesses for testifying to further 
this committee's efforts to better understanding terrorist threats, 
their makeup, and the activities of extremists groups within the 
Caucasus region.
    The Boston Marathon bombing and the Sochi Olympics spurred a 
growing interest in the Caucasus region, and I commend the subcommittee 
for exploring the topic. However, the subcommittee must be cautious in 
its approach. There is an opinion that many within the Caucasus region 
have been radicalized into an extremist mentality of global war. Many 
want to suggest this was the mentality of Tamerlan Tsarnaev, brother of 
alleged co-conspirator Boston Marathon bomber Dzhokhar Tsarnaev.
    Mr. Chairman, like I have reminded you that on several occasions 
throughout our years on this committee, our words go beyond these four 
walls. We must remember that we have a responsibility to the people of 
Boston and the rest of the American public, not to create a defense for 
the capital case against Dzhokhar Tsarnaev. While others suggest that 
there is a possibility that Tamerlan Tsarnaev was inspired by extremist 
groups in the Caucasus region, I believe that speculation about any 
influence he may have received is not helpful to the prosecution.
    Just last Friday, Dzhokhar Tsarnaev's defense team filed motions 
based on a report by committee staff. While I do not believe we need to 
jeopardize the prosecution of Dzhokhar Tsarnaev by speculating on 
Tamerlan's dealings in the Caucasus region, I do believe it is 
necessary for us to understand not only which groups are becoming 
radicalized in the Caucasus region, but also, why this is happening. 
The Caucasus region continues to be plagued by poverty, high 
unemployment, and challenges in governance and stability.
    Like in other regions, it is possible that these social problems 
are being exploited to boost recruitment. There is also evidence that 
suggests religious ideology plays only a limited role in the violence 
of extremist groups in the Caucasus region, but is used to mask the 
business of organized crime. According to reports, approximately one 
quarter of the violence in the North Caucasus is from organized crime. 
Mislabeling acts of organized crime as ``terrorism'' diminishes the 
real threats of terrorism in the region.
    Moreover, since 2009, when Russia ended its counter-terrorism 
operation in Chechnya, there has been a surge in violence and security 
forces within the North Caucasus region. While it is unclear if 
violence in the region has created a need for more security forces, it 
is well-documented that the actions of these security forces--
continuous engagement in a brutal and violent harassment and religious 
profiling--feeds a cycle of insurgency. It is clear that the 
instability of governance throughout the Caucasus region continues to 
prohibit religious freedoms and rights, which ultimately fuels al-
Qaeda, its affiliates, and other extremists groups. Ultimately, if we 
hope to gain a serious understanding of terrorists and extremist 
threats, we must do a thorough examination.
    Rather than viewing terrorists and insurgencies in an over-
generalized way, I encourage all Members of this committee to seek more 
information to understand the global and local dynamics fueling the 
insurgency in the Caucasus region.

    Mr. King. Before introducing our distinguished panel of 
witnesses, though, I wanted to recognize Jim Nichol from the 
Congressional Research Service. He is here today. It is his 
last day of work before retirement. He has been a significant 
resource to this committee, both when I was Chairman and 
Ranking Member and certainly, now, under Chairman McCaul in 
preparation of this hearing. He served CRS and the Congress for 
more than 30 years. There is no one on the Hill that knows 
about Eurasia and his expertise will be missed.
    Mr. Nichol, we want to congratulate you and thank you for 
your years of service and dedication and for doing the 
impossible of making us look reasonably smart. So thank you 
very much.
    Now, for today's hearing we will be hearing testimony from 
three expert witnesses: Dr. Gordon Hahn, Dr. William Roggio, 
and Dr. Andrew Kuchins.
    I want to welcome all three witnesses here, and I will ask, 
first, Dr. Hahn. He is an analyst and advisory board member for 
Geostrategic Forecasting Corporation, a global think tank that 
provides qualitative and quantitative analysis and business 
intelligence solutions to prominent geopolitical and 
geoeconomic threats. He is senior associate in Russia and 
Eurasia program with the Center for Strategic and International 
Studies. He is the author of numerous scholarly and analytic 
articles on jidadism in Russia and Eurasia, and has authored 
two books on Russia.
    We are pleased to have you here today as a witness, and you 
are recognized for approximately 5 minutes.

STATEMENT OF GORDON M. HAHN, PH.D., ANALYST AND ADVISORY BOARD 
          MEMBER, GEOSTRATEGIC FORECASTING CORPORATION

    Mr. Hahn. Thank you for the invitation, Representative 
King, and the committee and the help from the staff. I am gonna 
start off talking about my main conclusions first so I get to 
them in case we run out of time, then give a little background, 
and then talk about--focus a little bit on the Caucasus Emirate 
mujahedin in Syria. Okay, in terms of main conclusions, I do 
not foresee the Caucasus Emirate directly undertaking 
operations to attack the United States homeland, on its own, in 
the short- to mid-term. However, the Caucasus Emirate-
affiliated militants will, sooner or later, be involved in 
global jihadi plots to do so.
    They will probably be from among those fighting in Syria, 
perhaps those also fighting in AfPak. These are the so-called 
mujahedin, or those who have emigrated, or made the hijrah, to 
fight on another front. Also returning mujahedin and/or IK 
Caucasus there in mujahedin, remaining in Russia could attempt 
to attack U.S.-related soft targets in Europe and Eurasia, in 
particular inside Russia, with attacks that could include 
embassies, schools, various public venues, transporter 
pipelines.
    The Caucasus Emirate could partner in carrying out such 
attacks with foreign groups and groups, its mujahedin now more 
closely networked with in Syria, such as al-Qaeda or AQ and At-
Takfir wal-Hirja, which attempted an attack in Moscow last 
year, or groups from central Asia that are--have made the 
hijrah through the AfPak region and are now also some are 
located--fighting in Syria; groups like the Islamic movement of 
Uzbekistan, the Islamic Jihad Union, and some others.
    In Russia, I suspect that the Caucasus Emirate will see the 
lowest annual tally of attacks in this year, since its 
inception in 2007, because of the exodus of mujahedin to Syria. 
Okay, in terms of background, I have been arguing for many 
years--pretty much alone amongst Cretologists, but not among 
terrorist experts--that beginning in the 1990s, the extremist 
Chechen nationalist separatist movement, the Chechen republic 
of Ichkeriya and continuing with its global jihadi successor 
organizing, the Caucasus Emirate, Chechen and North Caucasus 
militants who had ties to the global jihadi revolutionary 
movement, including al-Qaeda, and that the Chechen Republic of 
Ichkeria was becoming jihadized and likely would become part of 
the global revolutionary movement and partner with al-Qaeda or 
other global jihadi groups.
    Months after publication of my book, the then-Chechen 
Republic, which Dokku Umarov abolished the Chechen Republic of 
Ichkeriya, established the Caucasus Emirate took the position 
of emir instead of president, took the jihadi nom de guerre Abu 
Usman, and declared the Caucasus Emirates enemies to be Russia, 
the United States, Great Britain, Israel, and any country 
fighting Muslims anywhere around the world.
    In October 2007, in addition to the Imarat Kavkaz, some--
since October 2007, in addition to the Caucasus Emirates, some 
2,400 insurgent terrorist attacks and jihadi-related 
incidences, including 54 suicide bombings. The Caucasus Emirate 
mujahedin and North Caucasus lone wolves have inspired by it 
have plotted or carried out insurgent terrorist attacks across 
the globe from Waziristan to Azerbaijan in the East and from 
Europe to Boston in the West.
    In sum, many years ago the Caucasus Emirate became not just 
a threat for Russian national security, but an emerging one for 
U.S. and international security. I want to talk a little bit 
about the new emir. The reports came out, the Caucasus Emirate 
confirmed, that Emir Dokku Umarov had been killed sometime last 
year. They confirmed this a couple of weeks ago. The new emir 
is one Sheik Ali Abu Muhammad ad-Dagestani--he was born 
Aliaskhab Alibutatovich Kabekov and is likely to radicalize 
and, perhaps, further globalize, and even deterritorialize the 
Caucasus Emirate further, given his deeper religious and Abu 
Dagestani roots.
    In July 2011, Dagestani stated, ``We are doing everything 
possible to build the caliphate.'' In his most recent lecture, 
he said, ``Oh, Allah, punish the Jews, the Americans, the 
Russians, Iran and Bashar Assad, their followers and helpers.'' 
Sheikh Dagestani is 42 years old. He was born on January 1, 
1972. He has been the kadhi--that is, the Sharia court judge--
for the Caucasus Emirate for the last--going on 4 years. He 
faces three basic challenges that I can see.
    First is reinvigorating the Caucasus Emirates non-Dagestani 
networks in Chechnya and in Gushedia. Second, maintaining a 
balance of power between different ethnic groups. Third and 
most important, dealing with the negative effects on Caucasus 
Emirate because of the exodus-emigration of fighters--of 
Caucasus Emirate fighters and other North Caucasus radicals to 
Syria. The Caucasus Emirate has had some global reach, as I 
alluded to before. They have had three foreign plots, all of 
them failed: One in Belgium, one in the Czech Republic, and on 
in Azerbaijan in 2012.
    They have inspired three plots, only one of which was 
successful. Unfortunately for us, that successful attack was in 
Boston last year. But the most important move by the Caucasus 
Emirate abroad has been to Syria, as I mentioned before. IK-
affiliated emirs, such as Tarkhan Batirasvili, are playing the 
leading role--at least the leading combat role--among the 
foreign mujahedin fighting in Syria that is now the main global 
front in the global jihad.
    Despite apparent reservations, Umarov appears to have 
backed three key emirs' hijrah to Syria in late 2011. Then they 
would take leading positions in the jihad there. According to 
the most prominent of these emirs, Batirashvili, Emir Umarov 
initially financed their activities. First, Batirashvili and 
the other emirs allied with al-Qaeda affiliate, Jabhat al-
Nusra, and then shifted towards the ISIS. Through 2012, 
hundreds of IK and North Caucasian mujahedin and other foreign 
muhajarine--that is, emigres consolidated around these Chechen 
emirs--by March 2013 their group, Jeish Mukhajirin va Ansar, 
the army of emigrants and helpers, or JMA, reportedly numbered 
more than 1,000.
    As relations between al-Nusra and ISIS deteriorated and 
devolved into violent clashes, Batirashvili took the lifetime 
loyalty oath, or bayat, to ISIS Emir Abu Bakr al-Baghdadi and 
was promoted to the position of the ISIS' military emirs. So we 
have a Chechen holding one of the top posts in this al-Qaeda-
affiliated organization. He did this in October 2013. A schism 
resulted from this and some other factors, leaving at least 
three major Syrian-based groups, a foreign muhajarine led by 
Caucasus Emirate emirs. One of them is even named now the 
Caucasus Emirate in Shama or in Syria.
    There is also now for the first time, by the way, a 
Caucasus Emirate in the Horasan organization that is in AfPak. 
We don't know exactly where they are--presumably they are in 
Waziristan. I want to briefly review nine implications--or 
maybe I won't get through all. I don't know how much time I 
have left--nine implications of the hijrha of----
    Mr. King. Actually, if you could try to do it like in the 
next 1\1/2\ minutes, sir.
    Mr. Hahn. Okay, okay.
    Mr. King. Thanks.
    Mr. Hahn. First is the debilitating effect on the Caucasus 
Emirate's capacity. Second is that the high profile of the 
Caucasus Emirate and other North Caucasus and Russian mujahedin 
in the Syrian jihad strengthens the Caucasus Emirate's ties to, 
and profile within, the overall global jihadi revolutionary 
movement, offering opportunities for greater access to 
recruits, financing, and weapons. Third, Caucasus Emirate 
fighters in Syria could acquire some of Assad's chemical 
weapons.
    Fourth, because of the first three implications I mentioned 
and the advent of a new emir there is a very high likelihood 
that the new emir is going to change tactics and, perhaps, 
strategy. That is, globalize the organization more, radicalize 
it more, maybe even more emphasis on spectacular attacks and 
suicide bombings. Fifth, likely is the expansion of Caucasus 
Emirate fighters to other global jihadi fronts. Sixth, a 
corollary of the fifth is the development of a--because of the 
networking in Syria--of a Eurasian--more tightly-knitted 
Eurasian group of fighters two hubs; one in the North Caucasus, 
another in central Asia. Because all these groups are now in 
Syria and in AfPak, together, fighting.
    Seventh, the new vulnerability to Shia-dominated Azerbaijan 
to attacks by the Sunni-dominated Caucasus Emirate and other 
fighters in Syria. Eighth, the possibility of a disastrous rout 
of Caucasus Emirate forces, damaging its capacity for years to 
come. Then finally, because of the ties between the Caucasus 
Emirate and foreign fighters in Syria, we are likely to see 
Russia be move up higher on the agenda of the global jihad in 
terms of targeting.
    With that, I close.
    [The prepared statement of Mr. Hahn follows:]
                  Prepared Statement of Gordon M. Hahn
                             April 3, 2014
                              introduction
    For a decade voices resonated in U.S. media and think tanks 
asserting that Chechen separatists and the Caucasus Islamists, such as 
those who forged the IK, had nothing to do with al-Qaeda and the global 
jihadi revolutionary movement, despite a plethora of contrary evidence. 
Some of those same voices still can be heard today.
    Contrary to those voices' claims and expectations, we now see the 
Imarat Kavkaz (Caucasus Emirate or IK) mujahedin and their lone wolves 
inspired by them carrying out insurgent and terrorist attacks across 
the globe from Waziristan in the East to Boston in the West.
    In fact, for nearly 2 decades, beginning with the extremist Chechen 
national separatist movement, the Chechen Republic of Ichkeriya (ChRI), 
and continuing with its global jihadist successor organization, the IK 
founded on October 31, 2007, Chechen and North Caucasus militants have 
had ties to the global jihadi revolutionary movement (al-Qaeda, its 
affiliates, and allied groups), including al-Qaeda (AQ). Indeed, in 
September 2009, Jordan's Sheikh Abu Muhammad Asem al-Maqdisi, whom the 
United States Military Academy's Combating Terrorism Center (CTC) 
designated ``the most influential living Jihadi Theorist,'' endorsed IK 
as a major jihadist organization and urged Muslims to support it ``so 
the Emirate becomes the door to Eastern Europe.''\1\ Consistent with 
Maqdisi's call, IK would expand operations into Europe and elsewhere 
abroad.
---------------------------------------------------------------------------
    \1\ ``Fatva Sheikha Abu Mukhammada al'-Makdisi o fitne v Imarata 
Kavkaz,'' Islam Umma,9 September 2010, 10:44, http://islamumma.com/
index.php?option=com_content&view=- article&id=1253:2010-09-10-07-35-
03&catid=130&Itemid=485 and ``Fatwa Sheikha Abu Mukhammada al'-Makdisi 
(da ukrepit ego Allakh),'' Kavkaz tsentr, 10 September 2010, 20:55, 
www.kavkazcenter.com/russ/content/2010/09/10/75149.shtml.
---------------------------------------------------------------------------
    Though rejected by most, I have been arguing since at least 2006 
that the IK has been part and parcel of that movement, supporting its 
goal of a global caliphate, and employing signature jihadi tactics such 
as suicide bombing or ``istishkhad'' attacks and other mass-casualty 
attacks. Since 2007 Umarov and CE ideologists have stated repeatedly 
that the organization is part of the global jihadi revolutionary 
alliance and supports AQ and other jihadi groups, though many refused 
to listen. CE websites now publish jihadi literature alone, including 
that of Osama bin Laden, Ayman al-Zawahiri, Anwar al-Awlaki, and 
hundreds of others. Published fatwas justify the use of weapons of mass 
destruction to kill ``millions'' of Americans, and translated issues of 
AQ's journal Inspire and articles like ``Make a Bomb in Your Mom's 
Kitchen'' instruct prospective mujahedin how to build IEDs from 
pressure cookers as the Tsarnaevs did. After U.S. forces brought 
justice to Osama bin Laden in May 2011, the now-deceased IK amir Dokku 
``Abu Usman'' Umarov said the AQ amir's reward in Paradise for his 
service to jihad would be ``great'' and asserted that neither the death 
of jihadi leaders nor the desires of ``the United States, Russia, or 
the UN'' can stop ``Islam's rebirth.''\2\ Thus, long ago IK became not 
just a threat for Russian national security but an emerging one for 
U.S. and international security.
---------------------------------------------------------------------------
    \2\ Umarov said in full: ``We ask Allah that He accepts the 
martyrdom of Sheikh bin Laden, because that man abandoned his wealth 
and peaceful worldly life for the sake of protecting Islam. And that is 
a great goal, and the reward for it is great. With regard to the 
question of whether bin Laden's death will affect the situation in the 
world, in my opinion the infidels do not believe themselves that their 
lives will become easier. According to all signs, it is clear that the 
world is in such situation that the death of the leaders of the Jihad 
in no way can stop the process of Islam's rebirth. It is the kind of 
cause that will move forward, regardless of whether the United States, 
Russia or the UN want it or not.'' ``Amir Dokku Abu Usman o bin Ladene, 
Imarate Kavkaz i poteryakh modzhakhedov,'' Kavkaz tsentr, 17 May 2011, 
http://kavkazcenter.com/russ/content/2011/05/17/81607.shtml.
---------------------------------------------------------------------------
    Since its October 2007 founding, the IK has carried out or been 
involved in some 2,400 insurgent and terrorist attacks and violent 
incidents, including 54 suicide attacks, inside Russia. Those attacks 
have produced approximately 9,000 casualties, including more than one 
thousand civilians. For comparison, the IK's attacks in Russia 
constitute approximately 6 percent of jihadi attacks globally, a ratio 
that does not include IK mujahedin attacks in Syria.\3\
---------------------------------------------------------------------------
    \3\ This is a snapshot estimate derived from comparing IK and 
global jihadi activity in December 2013. Specifically, it compares 
IntelCenter's global data with my own data on IK operations derived in 
part from reports on Kavkaz uzel (www.kavkaz-uzel.ru) and ``IMARAT 
KAVKAZ. Svodka boevykh operatsii modzhekhedov za mesyats Safar 1435 g 
kh. (5.12.2013-2.01.2014 g.),'' Umma News, 14 January 2014, http://
ummanews.com/news/last-news/11967----------1435----5--2013--2--
2014-.html. IntelCenter tracked 2,077 people killed and 2,558 people 
injured in 688 terrorist/rebel attacks worldwide in December 2013. 
``Global Casualty Data for Terrorist/Rebel Attacks, Dec. 2013,'' 
IntelCenter, 15 January 2014, http://us5.campaign-archive1.com/
?u=16cbb24e56cdcd360e9954d7a&id=32cc518d96&e=722a32839a. My own 
estimate for the same month in Russia was 42 insurgent and terrorist 
attacks. It should be taken into account that December is not usually 
the busiest month for CE activity given the cold and snow in the 
Caucasus mountains where many of the IK mujahedin winter. Moreover, 
this does not count attacks carried out by CE-affiliated mujahedin in 
Syria.
---------------------------------------------------------------------------
                           the ik's new amir
    The death of the CE's founder and first amir Dokku ``Abu Usman'' 
Umarov, perhaps as early as July 8, and the announcement of his 
successor ``Sheikh Ali Abu Muhammad ad-Dagestani'' (born Aliaskhab 
Alibutatovich Kebekov) has potential to bring change to IK, pushing it 
even a more radical direction. Sheikh Dagestani is an ethnic Avar from 
Dagestan and has been (and may still be at least for now) the IK's 
Shariah Court qadi or chief judge since autumn 2010. In July 2011 IK's 
new amir publicly-endorsed AQ's and the global jihadi revolutionary 
movement's goal of creating a global caliphate, noting: ``We are doing 
everything possible to build the Caliphate and prepare the ground for 
this to the extent of our capabilities.''\4\
---------------------------------------------------------------------------
    \4\ ``Stennogramma video: Kadii IK Abu Mukhammad--`Otvety na 
voprosy'--1 chast','' Guraba.info, 8 July 2011, 00:18, http://
guraba.info/2011-02-27-17-59-21/30-video/1117--i-q-q-1-.html and 
VDagestan.info, 8 July 2011, http://vdagestan.info/2011/07/08/
%d0%ba%d0%b0%d0%b4%d0%b8%d0%b9%d0%b8%d0%ba%d0%b0%d0%b1%d1%83%d0%bc%- 
d1%83%d1%85i%d0%b0%d0%bc%d0%bc%d0%b0%d0%b4%d0%be%d1%82%d0%b2%d0%b5%- 
d1%82%d1%8b%d0%bd%d0%b0%d0%b2%d0%be%d0%bf%d1%80%d0%be/.
---------------------------------------------------------------------------
    His ascension to the IK's top leadership post is the culmination of 
the rise to dominance within the IK of its Dagestan network, the so-
called ``Dagestan Vilaiyat'' or DV. From April 2010 through 2013 the DV 
has been the IK's spearhead, with Dagestan seeing approximately 70 
percent of the IK's some 1,700 attacks and violent incidents in Russia 
and the DV carrying out more than half of the istishkhad attacks during 
the same period, including those outside the North Caucasus.
    Sheikh Dagestani's rise also marks the culmination of the IK's 
theo-ideological and strategic jihadization. As the IK's qadi, 
Dagestani was the IK's chief theologian and ideologist, charged with 
ensuring the compliance of Umarov's and other amirs' actions with the 
Koran and the Sunna. Therefore, he was at the forefront of 
strengthening Islamist knowledge among the IK mujahedin. In a hundred 
or more video lectures, ad-Dagestani exhibits superb knowledge of the 
Koran, the Sunna, and the Arabic language, unlike his predecessor. His 
video lectures are replete with Koranic citations delivered in Arabic 
with the appropriate musical-style recitation and elongated vowel 
inflection. His first statement after that announcing his succession of 
Umarov was delivered entirely in Arabic to the IK mujahedin fighting in 
Syria.\5\
---------------------------------------------------------------------------
    \5\ For both the Russian-language transcript and Arab-language 
video, see ``Amir IK Ali Abu Mukhammad: Poslanie s sovetom 
mudzhakhidami Shama VIDEO,'' Kavkaz tsentr, 20 March 2014, 
www.kavkazcenter.com/russ/content/2014/03/20/103638.shtml. The Arab-
language video is also at VDagestan.com, http://dagestan.com/
obrashhenie-amira-ik-k-bratyam-v-sirii.djihad.
---------------------------------------------------------------------------
                         the ik's global reach
    Since at least 2010, IK has undertaken operations and inspired 
attacks outside Russia on a limited scale. The years 2010 and 2011 saw 
IK's first two major forays into Europe. In November 2010, a 
``Shariah4Belgium'' cell was uncovered, including Chechens, Moroccans, 
Belgians, and Dutch. It used a Russian-language website tied to al-
Qaeda to recruit fighters, raise funds, and plan attacks on NATO 
targets. In April 2011, a DV-tied cell, including Dagestanis, was 
uncovered in the Czech Republic, planning attacks in a third country. 
In April 2012, Azerbaijani security forces foiled a second DV 
(Dagestani Vilaiyat) foreign plot to carry out attacks in Baku and 
elsewhere in the southern Caucasus country, home to the strategic Baku-
Tbilisi-Ceyhan oil pipeline.\6\ There was also an alleged, still 
shadowy plot to assassinate President Vladimir Putin reported in late 
February 2012. Operations for the assassination were to be in Ukraine, 
with operatives from Kazakhstan moving through Turkey and the Middle 
East.\7\
---------------------------------------------------------------------------
    \6\ For details of the Azerbaijan plot, see Gordon M. Hahn, Islam, 
Islamism, and Politics in Eurasia Report (from here on cited as IIPER), 
Nos. 56 and 58, http://csis.org/files/publication/
120507_Hahn_IIPER_56.pdf and http://csis.org/files/publication/
120621_Hahn_- IIPER_58.pdf.
    \7\ For details on the Putin assassination plot, see Gordon M. 
Hahn, Islam, Islamism, and Politics in Eurasia Report, No. 53, 12 March 
2012, Center for Strategic and Internationmal Studies, http://csis.org/
files/publication/120312_Hahn_IIPER53.pdf.
---------------------------------------------------------------------------
    IK likely inspired the Chechen Lars Dakaev's failed plot to bomb 
the Danish newspaper Jyllands-Posten that published caricatures of 
Mohammed, setting off violent demonstrations around the Muslim world, 
as well as a foiled plot to attack targets in Gibraltar during the 2012 
London Summer Olympic Games and later elsewhere in Europe being planned 
by a group of three terrorists, two of them from the North Caucasus. 
The leader of the group planning the latter attack, an ethnic Chechen 
and/or Dagestani, Eldar Magomedov, was said by the Spanish court and 
police to be AQ's leading operative in Europe based on U.S. and Russian 
intelligence. The IK certainly inspired the successful Boston Marathon 
bombings that killed four and wounded 260.\8\
---------------------------------------------------------------------------
    \8\ For my detailed report on IK's inspiration of Tamerlan and 
Jokhar Tsarnaev, see Gordon M. Hahn, The Caucasus Emirate Comes to 
America: The Boston Marathon Bombing, Geostrategic Forecasting 
Corporation (GFC) White Paper, October 2013, 
www.geostrategicforecasting.com/products-page/whitepapers-
studiesandreports/boston-marathon-attack/.
---------------------------------------------------------------------------
    But nowhere does the IK's increasingly de-territorialized and 
global orientation resonate with such large implications as it does in 
Syria.
                            the ik in syria
    North Caucasian mujahedin, especially those affiliated with the IK 
in the past and present, are playing the leading role among foreign 
mujahedin fighting in Syria. Amir ad-Dagestani underscored the Syrian 
jihad's importance for the IK by making it the subject of his first 
video lecture after announcing his assumption of the IK leadership. He 
noted: ``When jihad began in Shama, we were overjoyed, first, because 
we studied Islamic sciences in Shama, but second because we studied the 
hadiths which tell about the achievements of Shama, about the fact that 
in the end-time of troubles the faith will be in Shama, that Allah's 
angels will spread their wings over Shama, that the best land is in 
Shama, and that the Heavenly Group will be in Shama at the end of 
time.''\9\
---------------------------------------------------------------------------
    \9\ ``Amir IK Ali Abu Mukhammad: Poslanie s sovetom mudzhakhidami 
Shama VIDEO.''
---------------------------------------------------------------------------
    Despite having an ambivalent attitude towards the emigration of IK 
mujahedin to Syria, Umarov appears to have backed three key amirs who 
made the ``hijra'' and took over leading positions in the Syrian jihad: 
Tarkhan Batirashvili (jihadi nom de guerre ``Abu Umar al-Shishani'' or 
Abu Umar the Chechen), Muslim Margoshvili (Abu Walid), and (Seifullah 
al-Shishani) Ruslan Machaliashvili (sometimes Meslikaev). They all 
appear to be ethnic Chechen Kists with ties to Georgia's Pankisi Gorge 
and previous connections to the CE. They arrived in Syria as a group in 
late 2011 or early 2012 and were initially financed by Umarov, 
according to Batirashvili, the most prominent of them.\10\
---------------------------------------------------------------------------
    \10\ ``Interv'yu s Abu Umarom Ash Shishani,'' Beladusham.com, 
www.beladusham.com/0392.html, last accessed 26 March 2014.
---------------------------------------------------------------------------
    Through 2012 hundreds of North Caucasian mujahedin and other 
emigres or muhajirin from Russia, Eurasia, Europe, and the Muslim world 
began to consolidate around the Chechen amirs through 2012. By late 
2012 they formed the brigade ``Kataib al-Mujahirin'' (KaM), with 
Batirashvili serving as its amir, and allied with the AQ-affiliated 
Jabkhat al-Nusra.
    In March 2013, Batirashvili received the ``bayat'' or Islamic 
loyalty oath from two Syrian rebel units, ``Kataib Khattab'' and 
``Jeish Muhammad,'' which included some 600 fighters who joined the 
KaM.\11\ According to the IK's main website, ``Kavkaz tsentr,'' the 
KaM, renamed ``Jeish Mukhajirin va Ansar'' (the Army of Emirants and 
Helpers) or JMA, now numbered more than a thousand militants.\12\
---------------------------------------------------------------------------
    \11\ ``Siriya: K brigade `Kataib Mukhadzhirin' prisoedinilis' dva 
siriiskikh podrazdeleniya,'' Kavkaz tsentr, 22 March 2013, 
www.kavkazcenter.com/russ/content/2013/03/22/96932.shtml.
    \12\ ``Siriya: Prisyaga siriiskikh modzhakhedov Amiru Armii 
mukhadzhirov i ansarov Umaru Shishani,'' Kavkaz tsentr, 26 March 2013, 
www.kavkazcenter.com/russ/content/2013/03/26/97014.shtml.
---------------------------------------------------------------------------
    The JMA, in particular amir Batirashvili, began to drift towards 
the then AQ-affiliated group, the Islamic State in Iraq and Sham 
(Syria) or ISIS, recently denounced by AQ amir Zayman al-Zawahiri for 
its radical excesses. JMA amir Batirashvili was appointed military amir 
of the ISIS's northern front in summer 2013. As relations between Nusra 
and the ISIS deteroriated and devolved into violent clashes, 
Batirashvili took the lifetime bayat to ISIS amir Abu Bakr al-Baghdadi 
and was promoted to the ISIS's overall military amir in late 
October.\13\
---------------------------------------------------------------------------
    \13\ ``Operatsiya `Fatikh','' FISyria.com, 7 December 2013, http://
fisyria.com/?p=1630.
---------------------------------------------------------------------------
    This prompted a series of splits within the JMA, producing at least 
three major Syria-based jihadi groups led by Chechen amirs from the IK 
or the North Caucasus in addition to Batirashvili's ISIS-loyal JMA:
  <bullet> Margoshvili's Jund al-Sham (JS) appears to function 
        autonomously;
  <bullet> Jeish al-Khalifat Islamiya (Army of the Islamic Caliphate) 
        or JKhI, the amir of which--Machaliashvili--was killed in 
        February and which is allied with JS but taken the bayat to 
        Nusra Front amir Abu Muhammad al-Jolani;\14\
---------------------------------------------------------------------------
    \14\ See the announcement in ``Dzheish Khilafa Al-Islamiya 
ob'yadenilas s Dzhabkhat an-Nusra,'' Usudu Sham, December 2013, [sic].
---------------------------------------------------------------------------
  <bullet> and the Imarat Kavkaz in Sham (Syria) or IKS led by the IK's 
        JMA/ISIS envoy, Salahuddin, appointed by late IK amir Umarov.
    In sum, IK-affiliated amirs are playing the leading role among the 
foreign mujahedin fighting in Syria--the main front in the global jihad 
at this time. Batirashvili's rise to the ISIS's top ranks and the 
eulogy to Machaliashvili by al-Nusrah amir Jolani testify to this 
fact.\15\ Greater testimony comes from the IK-affiliated amirs' leading 
command role and their North Caucasian-dominated jamaats' combat role 
in key battles, in particular those in and around Aleppo. Moreover, IK 
is in a more intimate relationship with AQ than ever before.
---------------------------------------------------------------------------
    \15\ Jolani noted that he and Machaliashvili fought closely 
together in Guta and elsewhere and that ``the Caucasus always will give 
birth to new heroes, and they will restore the former influence of the 
Umma.'' ``Amir `Dzhabkhat an-Nura' Abu Mukhammad al'-Dzhavlani ob amire 
Sefullakh Shishani,'' Kavkaz tsentr, 10 February 2014, 
www.kavkazcenter.com/russ/content/2014/02/10/103115.shtml.
---------------------------------------------------------------------------
               implications of the ik muhajirin in syria
    The Caucasus mujahedin's important role in the Syrian jihad has at 
least nine implications for the the global jihadi revolutionary 
movement and the struggle against it in Russia and the West.
    First, the the flood of many hundreds of IK mujahedin and other 
North Caucasian and Russian Islamists to the jihad in Syria is having a 
debilitating effect on the IK's capacity in the North Caucasus and 
Russia. Even if only several hundred IK fighters have gone to Syria, 
this is a relatively large number to take away from IK in the Caucasus 
which only reached some 1,000 fighters. Thus, the Caucasus-Russian 
hijra to the Syrian jihad is having a debilitating effect on the IK's 
four networks, including the spearhead Dagestani network, the so-called 
Dagestan Vilaiyat (DV). But all three other vilaiyats--the OVKBK, 
Chechnya's Nokchicho Vilaiyat (NV) and Ingushetiya's Galgaiche Vilaiyat 
(GV)--are seriously crippled by the hijra to Syria. Since it began in 
2011, the number of insurgent and terrorist attacks in Russia (99 
percent of them in the North Caucasus) has declined steadily. By my own 
estimate there were 583 in 2010, 546 in 2011, 465 in 2012, and 439 in 
2013. According to IK-affiliated figures, in the second Arabic month of 
2014, the decline in the number of attacks in Russia reached a nadir, 
declining to 10 from 31 during the same period in 2013.\16\ This and IK 
Umarov's death late last year go a long way towards explaining the IK's 
failure to attack the February-March Sochi Winter Olympic and Para-
Olympic Games, despite its leaders' many threats going back many years 
to do so.
---------------------------------------------------------------------------
    \16\ Compare the CE's own data for those Arabic calendar months in 
2013 and 2014 in ``IMARAT KAVKAZ. Svodka boevikh operatsii modzhakhedov 
za mesyats rabbi as-sanii 1434 goda po khidzhre (12 fevralya-12 marta 
2013 g.),'' Umma News, 13 March 2013, http://ummanews.com/news/kavkaz/
10099------------1434----12---12--2013-.html and ``Svodka Dzhikhada za 
mesyats Rabi as-Sani 1435 g. kh. (02.02.2014-02.03.2014g.),'' Kavkaz 
tsentr, 10 March 2013, www.kavkazcenter.com/russ/content/2014/03/10/
103490.shtml, respectively.
---------------------------------------------------------------------------
    Second, the high profile of the IK and other North Caucasus and 
Russian mujahedin in the Syrian jihad relative to their actual numbers 
raises the IK's ties to, and profile within the overall global jihadi 
revolutionary movement. The IK now has stronger ties to AQ and other 
global jihadi groups and fighters from across the globe, including 
those from countries in the immediate region such as Turkey, 
Azerbaijan, and Iraq. These stronger ties to the global jihad open 
opportunities for greater access to recruits, financing, and weapons.
    Third, JMA/IK fighters in Syria could acquire some of Assad's 
chemical weapons and manage to transport them into Russia for WMD 
attacks. On the eve of the Sochi Olympics one amir Umar of a IK DV 
``diversionary group'' called ``Ansar al-Sunni'' not only claimed 
responsibility for the December 2013 Volgograd sucide bombings in 
Volgograd, but warned Sochi that ``attacks up to and including chemical 
attacks'' were ready to be approved by IK amir Doku Umarov.\17\ 
Umarov's death may have delayed this attack, or perhaps the chemical 
materials had not yet been acquired or transported to the Caucasus. 
Moreover, there is some evidence that rebels in Syria may have acquired 
chemical agents from Bashar al-Assad's stockpiles. On 30 May 2013, 
Turkish authorities arrested a JaN fighters in possession of about 2 
kilos of sarin nerve gas, but no information has been made public about 
their nationalities.\18\ Days later, on June 1, Iraqi officials 
announced that they interdicted an AQ cell plotting to launch sarin gas 
attacks in Iraq, Europe, and possibly North America.\19\ A recent 
article by investigative journalist Seymour Hersh contends that CIA 
analysts reported to the Obama administration in the spring of last 
year that Syrian rebels may well have acquired some of Assad's 
stockpiles of chemical agents.\20\ Certainly, with the chaos of an on-
going civil war in Syria and the more than 40 sites at which Assad's 
chemical weapons have been reported to be located, it is possible that 
one or more jihadi groups could have acquired chemical materials.
---------------------------------------------------------------------------
    \17\ For more on the potential chemical threat, see Gordon M. Hahn, 
``Considering the Caucasus Emirate Chemical Threat to Sochi,'' Russia 
and Eurasia Program Blog, Center for Strategic and International 
Studies, 7 February 2014, http://csis.org/blog/considering-caucasus-
emirate-chemical-attack-threat-sochi.
    \18\ Karen Hodgson, ``Reports claim Al Nusrah Front members in 
Turkey were planning sarin gas attacks,'' Long War Journal, 31 May 
2013, www.longwarjournal.org/threat-matrix/archives/2013/05/
on_may_30_the_turkish.php.
    \19\ Thomas Jocelyn, ``Crisis in Syria: Implications for Homeland 
Security,'' Testimony of Thomas Joscelyn (Senior Fellow, Foundation for 
Defense of Democracies and Senior Editor, The Long War Journal) Before 
the House Committee on Homeland Security, United States Congress, 
September 10, 2013, http://docs.house.gov/meetings/HM/HM00/20130910/
101297/HHRG-113-HM00-Wstate-JoscelynT-20130910.pdf.
    \20\ Seymour M. Hersh, ``Whose Sarin,'' London Review of Books, 
Volume 34, Number 24, 13 December 2013, www.lrb.co.uk/2013/12/08/
seymour-m-hersh/whose-sarin.
---------------------------------------------------------------------------
    The first three implications plus the advent of a new era in the IK 
under its new amir, Sheikh ad-Dagestani' (Kebekov), raises a fourth 
possible implication: A shift in IK tactics, strategy, and/or goals. 
The goals of building the global caliphate and its affiliate in the 
North Caucasus, the IK, will remain. However, the more religiously-
steeped Dagestani, who will surely seek to leave his mark both on the 
local IK and global jihad, could turn to even greater reliance on 
suicide bombings, mass casualty attacks, and joint operations with 
foreign jihadi groups perhaps beyond Russia's borders as ways of 
compensating for lost capacity and maintaining a higher profile given 
the drain of potency to Syria. He may also change strategy by trying to 
expand operations more aggressively into the predominantly ethnic 
Russian North Caucasus regions of Stavropol, Krasnodar, and Rostov and 
to Volga Tatar regions as an ethnic and cultural bridge to the Crimean 
Tatars.
    A fifth implication could be the expansion of IK and North 
Caucasian mujahedin involvement on many of the global jihad 
revolutionary movement's various fronts; something we have already seen 
as summarized briefly in this report's introduction. For example, 
Chechens fighting in Syria were reported to be among a flood of 
extremists, including also Egyptians, Tunisians, and Syrians, heading 
to the Ain al-Hilweh refugee camp near Sidon Lebanon and joining the 
Abdallah Azzam Brigades' Ziad Jarrah Brigades and Lebanon's Jund al-
Sham in order to carry out attacks in Beirut, the Bekaa valley, and 
Tripoli.\21\
---------------------------------------------------------------------------
    \21\ Linda Lundquist, ``Extremists, including Chechens, Egyptians, 
Tunisians, and Syrians, are reportedly flocking to the Ain al-Hilweh 
refugee camp,'' Long War Journal, 8 February 2014, 
www.longwarjournal.org/today-in/2014/02/
security_forces_in_zahle_detai.php.
---------------------------------------------------------------------------
    This fifth implication raises a possible sixth--the formation of a 
more closely-linked Eurasian network of jihadi organizations with a 
second pillar after the IK in the North Caucasus becoming Central 
Asia's jihadi groups on the eve of the Western withdrawal from 
Afghanistan and the possible return to power of the Taliban. There are 
significant numbers of Central Asian mujahedin who have arrived in 
Syria from the homelands and from AfPak where a series of Central Asian 
jihadi organizations--the Islamic Movement of Uzbekistan, Islamic Jihad 
Union, Tajikistan's ``Jamaat Ansarullah'', and Kazakhstan's ``Jund al-
Khalifat''--are on their own hijra in AfPak. The IK and these groups 
already exchange personnel, including the travel of North Caucasians to 
these AQ-tied groups' training camps in AfPak, as well as video 
propaganda messages for mutual support. More recently, a group calling 
itself the ``Imarat Kavkaz in Khorosan'' and its amir Abdullah 
announced their presence somewhere in AfPak.\22\ Now these groups are 
mingling using their common, if often weak Russian-language knowledge 
and their peoples' common colonial experiences with Russia that will 
build bonds beyond those forged in combat.
---------------------------------------------------------------------------
    \22\ ``Obrashchenie Amira mudzhakhidov Imarata Kavkaz Abdullakha k 
mudzhakhidam Kavkaza i musul'manam Rossii,'' Kavkaz tsentr, 20 March 
2014, www.kavkazcenter.com/russ/content/2014/03/20/103616.shtml.
---------------------------------------------------------------------------
    Seventh, Azerbaijan is increasingly vulnerable to jihadi terrorist 
activity given its geographical proximity to Turkey, Syria, and Iraq 
and its use as a travel route by militants traveling to and from the 
Syrian and North Caucasus/Russian jihadi fronts. As noted in the 
introduction the IK already attempted a major plot in Azerbaijan in 
2012. Azerbaijan also has been plagued, if rarely, by jihadi terrorist 
attacks and CE incursions into its northern regions.
    Eighth, there is the possibility of disaster for the IK in Syria. 
In a major routes of the jihadis by Syrian forces, the bulk of its 
fighters could be wiped, or IK mujahedin may be so discouraged by the 
divisions and bloodshed between jihadi groups that they abandon their 
caliphate and emirate dreams.
    Ninth, given the IK's even greater integration into the global 
jihad and Russia's support for the Bashir Assad regime against which 
the jihadists are fighting, Russia is likely to move higher on the 
global jihadi revolutionary movement's target list. One Syrian ISIS 
commander told a Western journalists that Russia would be a target of 
the ISIS: ``Russia is killing Muslims in southern Muslim republics and 
sends arms and money to kill Muslims in Syria as well . . . I swear by 
God that Russia will pay a big price for its dirty role in the Syrian 
war.''\23\
---------------------------------------------------------------------------
    \23\ Anne Barnard and Eric Schmitt, ``As Foreign Fighters Flood 
Syria, Fears of a New Extremist Haven,'' New York Times, 9 August 2013, 
www.nytimes.com/2013/08/09/world/middleeast/as-foreign-fighters-flood-
syria-fears-of-a-new-extremist-haven.html?nl=todaysheadlines&emc=- 
edit_th_20130809&_r=0.
---------------------------------------------------------------------------
                 potential threat to the u.s. homeland
    Although I do not foresee the IK undertaking operations to attack 
the U.S. homeland on its own, I would expect that IK- or North 
Caucasus-affiliated militants, especially from among those fighting in 
Syria and AfPak will sooner or later be involved in international plots 
to do so. We have seen this already in the AQ plot uncovered in Spain 
and France during the 2012 London Summer Olympic Games. In that plot, 
two Chechens, one of whom was identified as AQ's top operative in 
Europe by the Spanish court based on U.S. and Russian intelligence.
    We should also be on guard against similar plots or even plots 
organized by the IK alone targeting U.S.-related soft targets in Europe 
and Eurasia, in particular in Russia. In addition to AQ and At-Takfir 
wal-Hijra--the latter of which undertook a plot to attack Moscow last 
year \24\--IK could partner with the four more or less Russian-
speaking, Central Asian jihadi groups in AfPak with which it maintains 
ties mentioned above as well as the Waziristan-based Volga Tatar 
``Bulgar Jamaat,'' elements of which have also made the hijra to Syria 
and fight along IK-affiliated groups there.\25\
---------------------------------------------------------------------------
    \24\ ``V Moskve arestovany 15 chlenov ``At Takfir val'-Khidzhra','' 
Kavkaz uzel, 29 November 2013, www.kavkaz-uzel.ru/articles/234336/.
    \25\ To reiterate, the four AfPak-based, Central Asian groups are: 
The Islamic Jihad Union, the Islamic Movement of Uzbekistan, 
Tajikistan's Jamaat Ansarullah, and Kazakhstan's Jund al-Khalifat.
---------------------------------------------------------------------------
          implications for russian foreign and security policy
    Russia's greater vulnerability to attacks by global Sunni jihadi 
groups as a result of the IK's growing ties with the global jihadi 
revolutionary movement raises several foreign policy implications.
    First, all else remaining equal, Moscow will have greater reason to 
maintain its relationships with Iran and Syria hoping against hope that 
the Shiites can at least absorb and contain the Sunni jihadi threat.
    Second, this likely will complicate non-proliferation efforts in 
both Iran and Syria and make it more difficult to remove Assad from 
power and secure Israel's national security.
    Third, any major attack emanating from IK or other jihadi groups in 
Syria could raise tensions in a Russo-Turkish relationship potentially 
burdened by Istanbul's pan-Turkish impulse to protect Crimea's Tatars 
from real or perceived Russian transgressions.
    Fourth, the same is true regarding Russia's relations with the Arab 
Gulf and Western states supporting the Syrian rebels.
    In sum, the Syrian civil war and jihad is reshaping the 
geopolitical and security landscape across Eurasia. For the IK, the 
Syrian jihadi crucible could provide new momentum through a pivotal 
jihadi victory in the region or swallow up the IK's mujahedin in a 
grand jihadi failure. Either way, this will have important implications 
for Russian national security and foreign policy and for Eurasian and 
international security as well.

    Mr. King. Thank you, Dr. Hahn.
    Our next witness, Mr. William Roggio, is a senior fellow at 
the Foundation for Defense of Democracies, a non-profit, 
nonpartisan policy institute focusing on foreign policy and 
National security. At the foundation, Mr. Roggio is the editor 
of The Long War Journal, which provides original reporting and 
analysis of the global war on terror. He is also the president 
of Public Multimedia, Inc., a non-profit media organization 
dedicated to covering the long war. He was embedded with the 
U.S. Marine Corps and the U.S. Army in Iraq in 2005, 2006, and 
2007, and with the Canadian Army in Afghanistan in 2006.
    We are privileged to have you here today as a witness, we 
thank you for being here, and you are recognized.

 STATEMENT OF WILLIAM F. ROGGIO, SENIOR FELLOW, FOUNDATION FOR 
                     DEFENSE OF DEMOCRACIES

    Mr. Roggio. Thank you, Chairman King. Thank you for the 
invitation to speak today. I agree--with what Dr. Hahn said 
about the al-Qaeda's--or the Islamic Caucus Emirate's links to 
al-Qaeda. They are historical, they are well-documented, and 
they span decades. You know, not only has Dokku Umarov, the 
former emir, you know, threatened the United States. But he has 
said, prior to his death in July he had said that the Islamic 
Caucus Emirates is part of the global jihad.
    You can see this by how this group and how its fighters are 
dispersed in the major theaters. The Islamic Caucus Emirates 
fighters have been spotted in Afghanistan and Pakistan for 
years. They haven't had the prominence that we are now seeing 
in Syria. They have operated more in the shadows. But they 
served as combat-enablers, basically special forces. They 
impart critical tactics and serve in--embedded with not just 
the Taliban but with al-Qaeda forces and other groups in the 
region.
    They supported groups like Islamic Movement of Uzbekistan 
and Islamic Jihad Union. As Dr. Hahn had mentioned, a group--
the Caucus mujahedin in the Emirate--in the Kurasan was formed, 
and this group announced its presence in 2011. This group had 
actually said that it was loyal to the Taliban. So we are 
seeing--I think it is a key indication of how this group has 
networked throughout the region.
    They--al-Qaeda has long had roots in the Caucasus. Bin 
Laden supplied--provided support for Ibn Khattab and Shamil 
Basayev. Our mujahedin fought in Chechnya and in the Caucasus 
in the 1990s from the beginning. Al-Qaeda also routinely 
highlights the importance of the Chechen theater. Zawahiri 
himself, in multiple speeches he talks about the importance of 
the fighting and the history of the fighting in Chechnya. They 
are upheld as ideal fighters. He, at one point in one speech 
said--he said follow the Chechen's lead in their resistance to 
democracy and resistance to Russian rule.
    Chechnya has been used as a recruiting tool in al-Qaeda's 
propaganda. Some of the 9/11 hijackers, they initially were--
wanted to--they were gonna be deployed to fight in Chechnya, 
but were re-tasked to actually conduct the attacks. Islamic 
Caucus Emirates employs al-Qaeda's tactics: Suicide bombing, 
suicide assaults, roadside bombings, and all of the other tools 
in the insurgency. We see this even in a recent video that was 
just released the other day in Syria.
    We see a training camp from the army of the immigrants and 
supporters--that is a Chechen-led group, obviously, or Caucus 
Emirates-like group. This camp looks just like an al-Qaeda 
training video that they have released over the decades. You 
see fighters navigating obstacle courses, you see fighters even 
in an IED class. Building IEDs and then deploying them. Same 
types of IEDs that have been used against U.S. forces in Iraq 
and Afghanistan.
    But where we are really seeing the Islamic Caucus Emirate 
having its greatest effect is in Syria. While in Afghanistan 
and Pakistan it largely operated in the shadows, I think in 
Syria it has really advertised its fighting. That is because 
instead of having, say, scores of fighters in the Afghan-
Pakistan region you now have hundreds if not thousands of 
fighters from the Caucasus. I think Dr. Hahn laid out a very 
good, detailed description of how the Islamic Caucus Emirates 
fighters began to form and coalesce inside Syria.
    It has become quite effective. We are now seeing fighters 
that are appearing in videos--fighters and commanders, they are 
appearing in videos--with al-Qaeda leaders or al-Qaeda-linked 
fighters. Including one sheikh, Abdullah Mohaisany, who has 
taken sides with al-Qaeda in its dispute with the Islamic State 
of Iraq. They are seen on the battlefield celebrating. You have 
two Chechen commanders, you have a leader of the group called 
Ahrar al-Sham, which is in the Islamic front.
    You have a top Saudi cleric, extremely popular Saudi 
cleric--who definitely is tied to al-Qaeda, all celebrating 
moments after overrunning a Syrian military position. One of 
the--the fighters from the Caucasus are considered some of the 
most tactically-proficient fighters amongst the jihadists. I 
think this is where they are having a major impact in Syria. 
They are imparting those tactics that they did on a smaller 
level in Afghanistan, and they are making these Syrian Islamist 
groups and jihadist groups far more effective.
    I think that is why we are seeing them having such--success 
against Syrian military formations. The other--I think the 
biggest concern I have is how they are interacting, in 
general--the fighters from the Caucasus are interacting in 
general--with all these other jihadist groups. We even have--
there is this one person who identifies himself as an American. 
His name is Abu Mohamed Amriki, which means, obviously, ``the 
American.'' He is currently being investigated for his ties. He 
claimed to live in the United States for 10 to 11 years.
    He is pictured with top leaders from the Caucus Emirates, 
such as Omar al-Shishani, who is now the military emir of the 
Islamic State of Iraq and al-Sham. As these individuals are 
interacting with Westerners or, better, joining the battlefield 
in Syria, or from countries that, you know--that would easily 
access the United States, I am deeply concerned with the 
tactics and capabilities that they are imparting.
    Thank you very much for your time.
    [The prepared statement of Mr. Roggio follows:]
                Prepared Statement of William F. Roggio
                             April 3, 2014
    Chairman King, Ranking Member Higgins, Members of the committee, 
thank you for inviting me here to discuss the terrorist threat 
emanating from the Caucasus. Unfortunately, as we saw nearly 1 year ago 
today at the Boston Marathon, the jihad in the Caucasus has already 
impacted lives here in the United States.
    There is still much we do not know for certain about Tamerlan 
Tsarnaev's travels in Dagestan and Chechnya, but we do know that, at a 
minimum, he was sympathetic to the jihadists operating there. Tamerlan 
Tsarnaev and his younger brother were, of course, responsible for the 
attacks on the Boston Marathon. As a report by the House Homeland 
Security Committee noted just last month, it ``is reasonable to assume 
that Tamerlan Tsarnaev was at least inspired by'' the ``activity and 
ideology'' of jihadists fighting in the Caucasus and he was ``driven to 
take part in the vision of global jihad which they share with al-
Qaeda.'' Indeed, the Imarat Kavkaz or ``IK'' (otherwise known as the 
Islamic Caucasus Emirate) does have links to al-Qaeda. And Tsarnaev is 
known to have sympathized with the IK and its fighters.
    The IK has openly proclaimed itself a threat to the United States 
and the West, and we should take these threats seriously. The U.S. 
State Department certainly does. In May 2011, the State Department 
officially designated the IK as a terrorist organization. ``The 
designation of Caucasus Emirate is in response to the threats posed to 
the United States and Russia,'' Ambassador Daniel Benjamin, the State 
Department's Coordinator for Counterterrorism, said at the time. ``The 
attacks perpetrated by Caucasus Emirate illustrate the global nature of 
the terrorist problem we face today,'' Benjamin added.\1\ In June 2010, 
the State Department added Doku Umarov, who was then the emir of the 
IK, to the U.S. Government's list of Specially Designated Global 
Terrorists.\2\ And in May 2011, Foggy Bottom offered a reward of $5 
million for information leading to Umarov's location.\3\ In both its 
June 2010 and May 2011 announcements, the State Department noted that 
Umarov and the IK pose a threat to the United States and other 
countries. Indeed, Umarov described the IK as ``a part of the global 
Jihad'' in a July 2013 statement in which he called for further attacks 
aimed at disrupting Russia's plans for the 2014 Winter Olympic Games in 
Sochi.\4\
---------------------------------------------------------------------------
    \1\ U.S. State Department, Office of the Spokesman, ``Designation 
of Caucasus Emirate,'' May 26, 2011; http://www.state.gov/r/pa/prs/ps/
2011/05/164312.htm.
    \2\ U.S. State Department, Office of the Coordinator for 
Counterterrorism, ``Designation of Caucasus Emirates Leader Doku 
Umarov,'' June 23, 2010; http://www.state.gov/j/ct/rls/other/des/
143564.htm.
    \3\ U.S. State Department, Office of the Spokesman, ``Rewards for 
Justice--Doku Umarov Reward Offer,'' May 26, 2011; http://
www.state.gov/r/pa/prs/ps/2011/05/164314.htm.
    \4\ Kavkaz Center, ``Caucasus Emirate Emir Dokku Abu Usman urged to 
prevent Olympic games in Sochi,'' July 3, 2013; http://
www.kavkazcenter.com/eng/content/2013/07/03/17994.shtml.
---------------------------------------------------------------------------
    Despite the fact that Umarov was recently killed, there are good 
reasons to suspect that the IK will continue to pose a threat to 
American and Western interests both in and outside of Russia. As with 
other al-Qaeda-affiliated groups, the IK will continue to spend most of 
its resources waging insurgencies, both inside Russia and elsewhere. 
Still, in my testimony today, I will highlight several key reasons why 
the IK poses a terrorist threat to the West. Those reasons are:
  <bullet> Osama bin Laden and al-Qaeda helped transform the insurgency 
        in Chechnya from a nationalist one into part of the global 
        jihad.--Al-Qaeda's senior leadership established its influence 
        within the Caucasus long ago. While al-Qaeda was headquartered 
        in Sudan from 1991 to 1996, Osama bin Laden maintained a 
        network of training camps and other facilities that shuttled 
        fighters to several jihadist fronts, including Chechnya.\5\ 
        During the 1990s al-Qaeda and the Egyptian Islamic Jihad (EIJ) 
        funneled cash and other support to Muslim rebels in Chechnya 
        through a charity in Baku, Azerbaijan.\6\ Ayman al-Zawahiri 
        himself, then the head of the EIJ, as well as second-in-command 
        of al-Qaeda, set out for Chechnya in late 1996. He was 
        accompanied by other dual-hated al-Qaeda-EIJ operatives. 
        Zawahiri was arrested in Dagestan before he reached Chechnya 
        and spent several months in prison. Zawahiri's trip to the 
        region underscores, from al-Qaeda's perspective, the importance 
        of supporting the jihad in Chechnya.
---------------------------------------------------------------------------
    \5\ 9/11 Commission Report, p. 64.
    \6\ 9/11 Commission Report, p. 58.
---------------------------------------------------------------------------
    Al-Qaeda's efforts in Chechnya have clearly borne fruit. Two highly 
        influential jihadists in Chechnya became closely allied with 
        al-Qaeda's senior leaders. Shamil Salmanovich Basayev (a 
        Chechen) and Ibn al Khattab (a Saudi) established the Islamic 
        International Brigade (IIB). ``In October 1999,'' according to 
        the United Nations Security Council committee responsible for 
        sanctioning al-Qaeda and Taliban-affiliated groups, 
        ``emissaries of Basayev and al Khattab traveled to Osama bin 
        Laden's home base in the Afghan province of Kandahar, where Bin 
        Laden agreed to provide substantial military assistance and 
        financial aid, including by making arrangements to send to 
        Chechnya several hundred fighters to fight against Russian 
        troops and perpetrate acts of terrorism.'' Also in 1999, bin 
        Laden ``sent substantial amounts of money to'' Basayev, al 
        Khattab and other jihadists in Chechnya. The money ``was to be 
        used exclusively for training gunmen, recruiting mercenaries 
        and buying ammunition.'' By the end of 2002, IIB leaders ``had 
        received several million dollars from international terrorist 
        organizations, including al-Qaeda.'' Al-Qaeda continued to 
        raise funds for the IIB after the 9/11 attacks.\7\
---------------------------------------------------------------------------
    \7\ United Nations Security Council Committee pursuant to 
resolutions 1267 (1999) and 1989 (2011) concerning al-Qaeda and 
associated individuals and entities, ``QE.1.99.03. Islamic 
International Brigade (IIB),'' September 7, 2010; http://www.un.org/sc/
committees/1267/NSQE09903E.shtml.
---------------------------------------------------------------------------
    By 1995, the U.N. notes, ``Arab Afghans''--that is, men from 
        throughout the Arab world who traveled to fight the Soviets in 
        Afghanistan during the 1980s--accounted for a ``substantial'' 
        number ``of those fighting against Russian troops.'' Al-Qaeda 
        not only supported the jihad inside Chechnya, but also made 
        sure to integrate Chechens into its operations in Afghanistan. 
        Al-Qaeda's elite ``055 Brigade,'' which fought alongside the 
        Taliban against the Northern Alliance, ``included a number of 
        Chechens, many of whom were believed to be followers of'' IIB 
        leaders. In October 2001, al Khattab supported al-Qaeda's fight 
        against coalition forces by sending ``additional fighters to 
        Afghanistan'' and promising ``to pay the volunteers' families a 
        substantial monthly stipend or a large lump-sum payment in the 
        event of their death.''\8\
---------------------------------------------------------------------------
    \8\ Ibid.
---------------------------------------------------------------------------
    Fighters from the Caucasus are present in the Afghanistan-Pakistan 
        region to this day. The International Security Assistance Force 
        (ISAF) has identified ``Chechen'' fighters in Afghanistan as 
        recently as May 2011, when it noted that a foreign fighter 
        network in Kunduz ``facilitates foreign suicide bombers 
        including Chechens and Pakistanis throughout the province.''\9\ 
        A group calling itself the Caucasus Mujahideen in Khorasan 
        announced its presence in October 2011, saying it was in direct 
        contact with its ``brothers'' in Russia.\10\ The United Nations 
        has noted that Umarov, the deceased head of the IK, supported 
        both the Islamic Jihad Group and the Islamic Movement of 
        Uzbekistan (IMU).\11\ Both groups are based in South Asia and 
        closely allied with al-Qaeda.
---------------------------------------------------------------------------
    \9\ ISAF Press Release, DVIDS, May 31, 2011; http://
www.dvidshub.net/news/71346/isaf-joint-command-morning-operational-
update.
    \10\ Bill Roggio, ``Fighters from `Caucasus Mujahideen in Khorasan' 
issue message to `brothers' in southern Russia,'' The Long War Journal, 
Oct. 22, 2011; http://www.longwarjournal.org/archives/2011/10/
fighters_from_caucas.php.
    \11\ United Nations Security Council Committee pursuant to 
resolutions 1267 (1999) and 1989 (2011) concerning al-Qaeda and 
associated individuals and entities, ``QI.U.290.11. Doku Khamatovich 
Umarov,'' March 10, 2011; http://www.un.org/sc/committees/1267/
NSQI29011E.shtml.
---------------------------------------------------------------------------
  <bullet> Al-Qaeda has repeatedly highlighted the fighting in Chechnya 
        in its propaganda videos.--After the U.S.S. Cole bombing in 
        October 2000, Osama bin Laden ordered his media committee to 
        produce a propaganda video that included a reenactment of the 
        Cole bombing, as well as footage from Chechnya and other 
        jihadist hotspots.\12\ The plight of Muslims in Chechnya 
        remained a theme in al-Qaeda's messaging in the years that 
        followed. And al-Qaeda continues to present the fighting in 
        Chechnya as part of its global jihad. In January of this year, 
        Ayman al-Zawahiri praised Chechen fighters, saying that the 
        ``fighting for Chechnya is another page of the pages of eternal 
        jihad to as to achieve true justice in the name of Allah.'' 
        Zawahiri asked if other jihadists would be willing to follow 
        the Chechens' example: ``Are we, as Muslims, ready to take the 
        path of the Chechens, and enroll in the ranks of the fight in 
        the name of Allah?'' Zawahiri called on Muslims in Egypt, 
        Libya, and Tunisia to follow the Chechens' lead in rejecting 
        democracy and waging jihad.\13\
---------------------------------------------------------------------------
    \12\ 9/11 Commission Report, p. 191.
    \13\ SITE Intelligence Group, ``Zawahiri Praises Chechen Fighters 
As Models for Jihad,'' January 25, 2014.
---------------------------------------------------------------------------
  <bullet> The jihad in Chechnya has been used to recruit terrorists--
        including a number of the 9/11 hijackers--who were repurposed 
        for attacks against American interests.--As the 9/11 Commission 
        reported, al-Qaeda's Hamburg cell traveled ``to Afghanistan 
        aspiring to wage jihad in Chechnya,'' but al-Qaeda ``quickly 
        recognized their potential and enlisted them in its anti-U.S. 
        jihad.''\14\ The Hamburg cell included the terrorists who flew 
        the hijacked planes on 9/11. Some of the muscle hijackers from 
        Saudi Arabia initially wanted to fight in Chechnya.\15\ Khalid 
        Sheikh Mohammed (KSM), the mastermind of 9/11, also attempted 
        to join the ranks of the main jihadist leader in Chechnya, Ibn 
        al Khattab.\16\ And in August 2001, French authorities provided 
        evidence to the U.S. Government that Zacarias Moussaoui, who 
        was slated to take part in a follow-on attack after 9/11, had 
        his own ties to Khattab.\17\
---------------------------------------------------------------------------
    \14\ 9/11 Commission Report, p. 160.
    \15\ 9/11 Commission Report, p. 233.
    \16\ 9/11 Commission Report, p. 149.
    \17\ 9/11 Commission Report, p. 274.
---------------------------------------------------------------------------
  <bullet> The IK has adopted al-Qaeda's tactics, including the use of 
        suicide bombers in attacks against civilians. The organization 
        has developed expertise in committing mass casualty terrorist 
        attacks. Since the formation of the IK in 2007, the group has 
        executed multiple suicide attacks against security forces, 
        government officials, and civilians. The attacks have not been 
        confined to the Caucasus region of Russia; IK has struck in the 
        heart of Moscow several times. Two of the most deadly IK 
        attacks in Moscow over the past several years are the January 
        24, 2011 suicide attack at the Domodedovo International Airport 
        in Moscow that killed 35 people and wounded scores more \18\ 
        and the March 29, 2010 suicide attack by two female bombers, or 
        Black Widows, who killed 39 people in the Moscow metro.\19\
---------------------------------------------------------------------------
    \18\ Bill Roggio, ``Caucasus Emirate leader claims Moscow airport 
suicide attack,'' The Long War Journal, Feb. 7, 2011; http://
www.longwarjournal.org/archives/2011/02/caucasus_emirate_cla.php.
    \19\ Bill Roggio, `` `Black Widow' female suicide bombers kill 37 
in Moscow metro blasts,'' The Long War Journal, March 29, 2010; http://
www.longwarjournal.org/archives/2010/03/female_suicide_bombe_3.php.
---------------------------------------------------------------------------
    Other major suicide bombings include the June 22, 2009 attack that 
        wounded Yunus Bek Yevkurov, the President of the Republic of 
        Ingushetia and suicide attacks on Oct. 21, 2013,\20\ Dec. 29, 
        2013, and Dec. 30 2013 \21\ that targeted transportation nodes 
        (a bus, a train station, and a trolley respectively) in the 
        city of Volgograd. All of these attacks were executed by the 
        suicide teams of the Riyadus-Salikhin Reconnaissance and 
        Sabotage Battalion of Chechen Martyrs (RSRSBCM), a unit that 
        predates the IK and was responsible for attacks such at the 
        school siege in Beslan, the destruction of commercial airlines, 
        and the theater siege in Moscow.\22\ The IK is closely linked 
        to the RSRSBCM.\23\
---------------------------------------------------------------------------
    \20\ Lisa Lundquist, ``Suspected `Black Widow' suicide bomber kills 
6 in southern Russia,'' Oct. 21, 2013; The Long War Journal, http://
www.longwarjournal.org/archives/2013/10/a_suspected_black_wi.php.
    \21\ Bill Roggio, ``Suicide bomber strikes again in southern 
Russia,'' Dec. 30, 2013, The Long War Journal; http://
www.longwarjournal.org/archives/2013/12/suicide_bomber_strik_8.php.
    \22\ Benjamin Shapiro, ``Caucasus jihad: Terror tactics back on the 
horizon?'', The Long War Journal, May 21, 2009; http://
www.longwarjournal.org/archives/2009/05/caucasus_jihad_terro.php.
    \23\ United Nations Security Council Committee pursuant to 
resolutions 1267 (1999) and 1989 (2011) concerning al-Qaeda and 
associated individuals and entities, ``QE.1.99.03. Islamic 
International Brigade (IIB),'' September 7, 2010; http://www.un.org/sc/
committees/1267/NSQE09903E.shtml.
---------------------------------------------------------------------------
  <bullet> The IK's threat against the 2014 Olympics in Sochi was real, 
        despite the fact that no terrorist attack materialized.--In 
        June 2013, Doku Umarov called on his supporters to use 
        ``maximum force'' to stop the 2014 Olympic Games. ``Today we 
        must show those who live in the Kremlin . . . that our kindness 
        is not weakness,'' Umarov said. ``They plan to hold the 
        Olympics on the bones of our ancestors, on the bones of many, 
        many dead Muslims buried on our land by the Black Sea. We as 
        mujahideen are required not to allow that, using any methods 
        that Allah allows us.''\24\
---------------------------------------------------------------------------
    \24\ Miriam Elder, ``Russian Islamist Doku Umarov calls for attacks 
on 2014 Winter Olympics,'' The Guardian, July 3, 2013; http://
www.theguardian.com/world/2013/jul/03/russia-islamist-attack-olympics-
sochi.
---------------------------------------------------------------------------
    The Russian government erected substantial security barriers in 
        order stop terrorists from striking the Olympic festivities. It 
        is likely that these measures either stopped an attack from 
        occurring, or dissuaded the IK from attempting one. If the 
        opportunity for an attack had presented itself, there is little 
        doubt that the IK would have taken it. And the IK would not 
        have discriminated between Russian government officials/
        civilians and others who were visiting the games from abroad. 
        That is, the IK's threat against the Olympic Games was not just 
        a threat against Russia, but was in fact a threat against the 
        international community.
  <bullet> The IK operates as part of al-Qaeda's global network. As 
        we've learned over the past several years, the terrorist threat 
        against the United States can come from any part of al-Qaeda's 
        international network. The IK is integrated with this network. 
        Today, this can best be seen in Syria, where multiple IK 
        commanders and other affiliated fighters have joined the 
        insurgency against Bashar al Assad's regime.
    Jihadist from the IK play a pivotal role in the fighting in Syria, 
        and leaders from the Caucasus command large numbers of Syria 
        and foreign fighters in several jihadist groups operating in 
        the country. Those groups include the Al Nusrah Front for the 
        People of the Levant, al-Qaeda's official branch in Syria; the 
        Islamic State of Iraq and the Sham, or ISIS, an al-Qaeda 
        splinter group; and the Islamic Front, an Islamist alliance 
        that is allied with the Al Nusrah Front. Both the Al Nusrah 
        Front and the ISIS are on the U.S. Government's list of 
        Specially Designated Global Terrorist entities.
    Fighters from IK originally fought in the Kateeb al Muhajireen wal 
        Ansar, or the Brigade of the Emigrants and Helpers. This group 
        was formed in February 2013 and was led by Omar al Shishani (a 
        Chechen).\25\ Kavkaz Center noted that the group ``includes 
        volunteers from the Caucasus Emirate.''\26\ In March 2013, the 
        group expanded and rebranded itself the Jaish al Muhajireen wa 
        Ansar, or Army of the Emigrants and Helpers. Syrian jihadist 
        groups merged with Abu Omar's forces at this time.\27\
---------------------------------------------------------------------------
    \25\ Bill Roggio, ``Chechen commander leads Muhajireen Brigade in 
Syria,'' The Long War Journal, Feb. 20, 2013, http://
www.longwarjournal.org/archives/2013/02/chechen_comman- der_le.php.
    \26\ Kavkaz Center, ``Syria. Appeal of Emir of Brigade of Emigrants 
Abu Omar al-Chechen,'' Feb. 7, 2013; http://www.kavkazcenter.com/eng/
content/2013/02/07/17333.shtml.
    \27\ Bill Roggio, ``Chechen commander forms `Army of Emigrants,' 
integrates Syrian groups,'' The Long War Journal, March 28, 2013; 
http://www.longwarjournal.org/archives/2013/02/
chechen_commander_le.php.
---------------------------------------------------------------------------
    The Army of the Emigrants and Helpers served as the vanguard for 
        jihadist forces in Syria. It was spotted at the tip of the 
        spear during the fighting at nearly every crucial battle in 
        2013. The group launched joint assaults with the Al Nusrah 
        Front and the ISIS to overrun Syrian military bases. The Army 
        of the Emigrants and Helpers has shot down a Syrian helicopter 
        with a surface-to-air missile and used a captured BMP armored 
        fighting vehicle as a suicide car bomb in order to penetrate 
        the perimeter at a Syrian military base.\28\ \29\
---------------------------------------------------------------------------
    \28\ Bill Roggio, ``Muhajireen Army fires on Syrian helicopter with 
surface-to-air missile,'' The Long War Journal, June 27, 2013; http://
www.longwarjournal.org/threat-matrix/archives/2013/06/
muhajireen_army_fires_on_syria.php.
    \29\ Bill Roggio, ``Muhajireen Army uses BMP to launch suicide 
assault on Aleppo airport,'' The Long War Journal, June 27, 2013; 
http://www.longwarjournal.org/archives/2013/06/
muhajireen_army_uses.php.
---------------------------------------------------------------------------
    The Army of the Emigrants and Helpers splintered in the fall of 
        2013 as ISIS and the Al Nusrah Front clashed over a leadership 
        dispute and the former's unwillingness to submit to sharia 
        courts. Abu Omar al Shishani took a faction of fighters and 
        joined the ISIS. Three commanders, known as Saifullah al 
        Shishani, Salahuddin Shishani, and Abu Musa al Shishani, joined 
        the Al Nusrah Front. Salahuddin has even been photographed in 
        Syrian sitting in front of an IK flag. And another commander, 
        known as Muslim al Shishani, reformed the Army of the Emigrants 
        and Helpers and remained independent from, but allied with, the 
        Al Nusrah Front and the ISIS.
    The prevalence of IK fighters and leaders on the Syrian battlefield 
        has serious, long-term ramifications for the global jihad. IK 
        members are interacting with and sharing their tactical skills 
        with Westerners and others. For instance, a jihadist who 
        identifies himself as an American and is known as Abu Muhammad 
        al Amriki has been seen in photographs with Omar al 
        Shishani.\30\ He is also seen fighting alongside IK fighters 
        and even speaks in Russian.\31\
---------------------------------------------------------------------------
    \30\ Bill Roggio, `` `American' jihadist in Syria pictured with 
dangerous ISIS commanders,'' The Long War Journal, March 19, 2014; 
http://www.longwarjournal.org/archives/2014/03/
american_jihadist_in.php.
    \31\ The video can be found on YouTube, see: https://
www.youtube.com/watch?v=TPNIOL34bA4&feature=youtu.be.
---------------------------------------------------------------------------
    Thank you again for inviting me to testify today, and I look 
forward to answering your questions.

    Mr. King. Thank you, Mr. Roggio. Appreciate your testimony.
    Now, Dr. Andrew Kuchins is a senior fellow and director of 
the Russia and Eurasia program at the Center for Strategic and 
International Studies. He is an expert on Russian foreign and 
domestic policies, with his more recent scholarship being 
dedicated to U.S.-Russian relations and the Russia-Asian 
strategy; and the role of energy in the Russian Far East.
    From 2003 to 2006, Dr. Kuchins was a senior associate at 
the Carnegie Endowment for International Peace, where he served 
as director of its Russian and Eurasian program, and was the 
director of the Carnegie Moscow Center in Russia. I am glad 
they got your nameplate straight. We are very privileged to 
have you here today as a witness, Dr. Kuchins.
    You are recognized, thank you.

  STATEMENT OF ANDREW C. KUCHINS, PH.D., DIRECTOR AND SENIOR 
 FELLOW, RUSSIA AND EURASIA PROGRAM, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Mr. Kuchins. Thank you very much Chairman King. It is a 
great pleasure and honor for me to have the opportunity to 
speak before the committee today, and, along with the two very 
distinguished colleagues. I should say out the outset that I 
agree very, very much with what my predecessors have said, 
particularly about the dangers of the links between fighters 
from the North Caucasus and their link-up with those in Syria, 
and the potential implications.
    The thrust of my remarks will be somewhat different. In my 
view, the terrorist threat to the U.S. homeland emanating from 
the North Caucasus region of the Russian Federation is likely 
to increase in the years ahead. The judgment is based on my 
perception of several on-going trends and phenomena. I want to 
make, basically, six points. One, the governance problems in 
the Northern Caucasus that plague the region at large are 
growing. While the incidents of violent acts may have subsided 
moderately in the past few years, the underlying issues of poor 
governance, economic deprivation, high unemployment, and 
endemic corruption are all getting worse.
    In addition, oppression on the basis of religion by the 
Russian state is increasing in the face of the growing role of 
Islam, including radical and violent Salafi groups in ideology 
in the North Caucasus, in Russia more broadly. Many people who 
may have initially been quite moderate in their views and goals 
have been radicalized by the very unpleasant experiences of 
themselves or those close to them in encounters with Russian 
state authority.
    Two, the growing resonance of Russian nationalism and 
national politics is feeling increasing resentment about the 
subsidization of the region. This sentiment, which has been 
captured by the popular phrase ``stop feeding the Caucasus'' is 
pushing the Russian government to curtail government spending 
toward the region just as the strains of economic stagnation in 
the Russian economy at large--there is a less than a 1 percent 
annual growth at the moment--are putting pressures on the 
budget more broadly. The near-term prospects for the Russia 
economy have much greater downside risk today than upside 
potential.
    In a CSIS report on the Northern Caucasus published in 
2011, we concluded that the Northern Caucasus is increasingly 
looking like a virtually ungovernable region under kind-of a 
different jurisdictional administrative regime than that which 
prevails in the rest of the country; maybe more akin to the 
Fatah in Pakistan. This is also reflected in growing sentiment 
among Russians that people from the Caucasus are not ``nosh'' 
or ``ours.'' That this is a region populated by peoples that 
are not really Russia, certainly not Ruski, maybe even not 
Rasiski.
    Three, Islam, as it is in many countries and regions of the 
world, is becoming a more significant part of individual's 
identity in the Northern Caucasus and elsewhere in the Russia 
Federation, notably the Volga Region and other large cities. 
Not surprisingly, we see increasing voice for Islam being 
expressed in the political context. Chechen leader, Ramzan 
Kadyrov for example, has embraced and promoted this in 
Chechnya, even endorsing the implementation of Sharia law. We 
also see greater prevalence of radical Salafi strains of Islam, 
as well as overt linkages with global jihadist ideology, which 
is largely facilitated by the internet, as well as the direct 
links that Gordon and Bill talked about.
    Four, significant numbers, likely, hundreds not thousands, 
according to available data, of jihadists from the Northern 
Caucasus have left for Syria to take up arms against the Assad 
regime. Here, they have become battle-hardened veterans with 
much deeper ties to global jihadist financial, ideological, 
arms, and warfare training networks. Vladimir Putin's strong 
stance supporting Assad only deepens their hatred of the ruling 
order in Russia and their desire to demolish it if, and when, 
they return to Russia.
    The success of the mujahedin in Afghanistan in the 1980s 
was a watershed event for the emergence and consolidation of 
embryonic jihadist networks If there were a similar success in 
Syria for the jihad-inspired forces in taking down the Assad 
regime, we should also anticipate how this event could prompt 
another quantum leap in the capabilities of jihadist networks 
globally in terms of recruiting, financing, training, among 
other areas. Already, as my colleagues have laid out, the 
linkages between the Northern Caucasus and the battleground in 
Syria have strengthened in many ways. We should anticipate that 
the success--and even to a lesser extent, even with the--if it 
were to--with failure of jihadists in Syria could dramatically 
increase the dangers that groups and individuals present in the 
Northern Caucasus.
    The Obama administration has consistently under-appreciated 
this factor as a major reason for Vladimir Putin's staunch 
support for the Assad government for the past 3 years.
    Five, the poor state of U.S.-Russia relations was already a 
contributing factor in suboptimal counterterrorism and 
intelligence sharing that, in part--a lesser part for sure--
facilitated the intelligence failure represented by the Boston 
bombing by the Tsarnaev brothers in April 2013.
    Committee Members know far better than I that intelligence 
sharing, even with our closest allies, is a complicated and 
challenging task. Intelligence sharing with a partner like the 
Russian Federation, where mutual trust is very low, is that 
much less likely to be successful and useful. Since the mutual 
intelligence failure of the Boston bombings a year ago--again, 
clearly, the lion's share of this responsibility falls on U.S. 
intelligence and law enforcement institutions, given that the 
act took place on U.S. territory--U.S.-Russia relations have 
dramatically worsened over issues including, but not limited 
to, the Snowden affair and Russia's military occupation and 
subsequent annexation of Crimea.
    As we sit here today, it is extremely difficult for me to 
imagine that existing problems in U.S.-Russia intelligence 
sharing on interactions between dangerous individuals and 
groups in the Northern Caucasus with like-minded individuals 
and groups in the United States or elsewhere, who may pose a 
threat to the U.S. homeland--will improve. Realistically, the 
current dysfunctional status quo in U.S.-Russia 
counterterrorism cooperation will be politically hard to 
maintain.
    Six, a far more dangerous threat to the U.S. homeland could 
emerge if Russian government intentions regarding how it 
manages its own terrorist threat changes in certain ways. What 
do I mean? My previous point suggested expectations of 
cooperation from Russia to help contain threats that we had 
identified as at least, to some extent, mutual in the past are 
likely to be disappointed.
    A far more acute danger for the United States would emerge, 
however, if the Russian government decided, for reasons to 
contain the threat of jihadist-inspired terrorists committing 
terrorist acts on a Russian territory and/or to asymmetrically 
punish the United States, they could be a facilitator for 
attacks on the U.S. homeland. Always with plausible deniability 
of course.
    Alternatively, but with a similar result, could we imagine 
that Moscow and Tehran could conclude to direct other Islamic-
inspired, non-Salafi jihadists--terrorist networks to wreak 
havoc on the U.S. homeland, out of mutual interest--to 
asymmetrically punish the United States. So in conclusion, I am 
virtually certain that the problems in the North Caucasus, to 
some degree, have increased the threat to the U.S. homeland.
    Although we do not know or understand everything that 
transpired between the act of the Tsarnaev brothers to set off 
the bomb at the Boston Marathon a year ago, and their links and 
interactions with groups and individuals in the Northern 
Caucasus, for me this terrorist attack is indisputably 
demonstrated that, in some form, what is going on in the 
Northern Caucasus increases the overall threat assessment for 
the United States.
    The confluence of the on-going Syrian imbroglio, the 
Iranian nuclear problem, and the dramatic worsening in U.S.-
Russia relations that has no end in sight, is certainly 
increasing the threat to the United States. There are clear 
links from the problems in the Northern Caucasus to this 
threat, but they are not the only reason that Russia's position 
could very significantly increase the threat to the U.S. 
homeland. That is my final point.
    This brings me--and it revolves around the psychology and 
the potential intentions of Vladimir Putin and, more ominously, 
those around him who may have much darker motivations and 
intentions. Mr. Putin has been underestimated by Russian as 
well as foreign elites, very always to their regret since he 
emerged on Russia's national political stage in 1999. 
Undoubtedly this is a phenomenon that he personally has 
encountered and manipulated to his benefit since his youth.
    Americans, but not only Americans, also have deeply 
underestimated the national psychological trauma that the 
collapse of the Soviet Union constituted for Vladimir Putin and 
tens of millions of other Russians. We need to conceptualize 
the Russian Federation as continuing to endure something akin 
to post-traumatic stress disorder. Mr. Putin resonates so well 
with the majority of Russians because he taps directly into 
this very, very rich psychological vein.
    I do not pretend to know much about psychology, but I do 
know that if PTSD is not treated its symptoms get worse, not 
better, over time. Mr. Putin, as he did in Brussels last week, 
and--sorry, as a starting point I would recommend to our 
President to refrain from publicly taunting Mr. Putin as he did 
in Brussels last week, and caution other American politicians 
and officials from doing the same. I would also recommend that 
the President and other officials refrain from revealing in 
public to Mr. Putin and others around the world what are our 
deepest fears that keep us up at night.
    In addition, I urge all to carefully read the speech Mr. 
Putin gave to the federal assembly on March 18 in Moscow. 
Because it is possible that historians in the future may mark 
that moment as the tipping point of Weimar Russia into a 
fascist state.
    Thank you.
    [The prepared statement of Mr. Kuchins follows:]
                Prepared Statement of Andrew C. Kuchins
                             April 3, 2014
    It is my view that the terrorist threat to the U.S. homeland 
emanating from the Northern Caucasus region of the Russian Federation 
is likely to increase in the years ahead. This judgment is based on my 
perception of several on-going trends and phenomena:
    (1) The governance problems in the Northern Caucasus that plague 
        the region at large are growing. While the incidence of violent 
        acts may have subsided moderately in the past few years, the 
        underlying issues of poor governance, economic deprivation, 
        high unemployment, and endemic corruption are all getting 
        worse. In addition, oppression on the basis of religion by the 
        Russian state is increasing in the face of the growing role of 
        Islam, including radical and violent Salafi groups and 
        ideology, in the North Caucasus and Russia more broadly. Many 
        people who may have initially been quite moderate in their 
        views and goals have been radicalized by the very unpleasant 
        experiences of themselves or those close to them in encounters 
        with Russian state authority.
    (2) The growing resonance of Russian nationalism in national 
        politics is fueling increasing resentment about the 
        subsidization of the region. This sentiment, which has been 
        captured by the popular phrase ``Stop Feeding the Caucasus,'' 
        is pushing the Russian government to curtail government funding 
        toward the region just as the strains of economic stagnation 
        (less than 1 percent annual GDP growth at current estimations) 
        are putting pressure on the budget more broadly. The near-term 
        prospects for Russian economy have much greater downside risk 
        than upside potential. In a CSIS report on the Northern 
        Caucasus published in 2011, we concluded that the Northern 
        Caucasus is increasingly looks like a virtually ungovernable 
        region under a different jurisdictional administrative regime 
        than that which prevails in the rest of the country, similar to 
        the FATA in Pakistan. This is also reflected in growing 
        sentiment among Russians that people from the Caucasus are not 
        Nash (ours), and that this is a region populated by peoples 
        that are not really Russian.
    (3) Islam, as it is in many countries and regions of the world, is 
        becoming a more significant part of individuals' identity in 
        the Northern Caucasus and elsewhere in the Russian Federation 
        (notably the Volga Region and other large cities).\1\ Not 
        surprisingly, we see increasing voice for Islam being expressed 
        in the political context. Chechen leader Ramzan Kadyrov, for 
        example, has embraced and promoted this in Chechnya, even 
        endorsing the implementation of Sharia law. We also see a 
        greater prevalence of radical Salafi strains of Islam as well 
        as overt linkages with global Jihadist ideology, which is 
        largely facilitated by the internet.
---------------------------------------------------------------------------
    \1\ Sergey Markedonov, The Rise of Radical and Nonofficial Islamic 
Groups in Russia's Volga Region (Washington, DC: Center for Strategic 
and International Studies, January 2013).
---------------------------------------------------------------------------
    (4) Significant numbers (likely hundreds, not thousands according 
        to available data) of Jihadists from the Northern Caucasus have 
        left for Syria to take up arms against the Assad regime. Here 
        they have become battle-hardened veterans with much deeper ties 
        to global jihadist financial, ideological, arms, and warfare 
        training networks. Vladimir Putin's strong stand supporting 
        Assad only deepens their hatred of the ruling order in Russia 
        and their desire to demolish it if and when they return to 
        Russia. The success of the Mujahedeen in Afghanistan in the 
        1980s was a watershed event for the emergence and consolidation 
        of embryonic Jihadist networks. If there were a similar success 
        in Syria for the Jihad-inspired forces in taking down the Assad 
        regime, we should also anticipate how this event could prompt 
        another quantum leap in the capabilities of Jihadist networks 
        globally in terms of recruiting, financing, and training, among 
        other areas. Already the linkages between the Northern Caucasus 
        and the battleground in Syria have strengthened in many ways, 
        and we should anticipate that the success (and to a lesser 
        extent, even failure) of Jihadists in Syria could dramatically 
        increase the dangers these groups and individuals present in 
        the Northern Caucasus. The Obama administration has 
        consistently underappreciated this factor as a major reason for 
        Vladimir Putin's staunch support for the Assad government for 
        the past 3 years.
    (5) The poor state of U.S.-Russia relations was already a 
        contributing factor in sub-optimal counter-terrorism and 
        intelligence sharing that in part facilitated the intelligence 
        failure represented by the Boston bombing by the Tsarnaev 
        brothers in April 2013. Committee members know far better than 
        I that intelligence sharing even with our closest allies is a 
        complicated and challenging task. Intelligence sharing with a 
        partner like the Russian Federation where mutual trust is very 
        low is that much less likely to be successful and useful. Since 
        the mutual intelligence failure of the Boston bombings a year 
        ago (though clearly the lion's share of this responsibility 
        falls on U.S. intelligence and law enforcement institutions 
        given that this act took place on U.S. territory), U.S.-Russian 
        relations have dramatically worsened over issues including but 
        not limited to the Snowden affair and Russia's military 
        occupation and subsequent annexation of Crimea. As we sit here 
        today, it is extremely difficult to imagine that existing 
        problems in U.S.-Russia intelligence sharing on interactions 
        between dangerous individuals/groups in the Northern Caucasus 
        with like-minded individuals/groups in the United States or 
        those elsewhere who may pose a threat to the U.S. homeland will 
        improve. Realistically, the current dysfunctional status quo in 
        U.S.-Russia counter-terrorism cooperation will be politically 
        hard to maintain.
    (6) A far more dangerous threat to the U.S. homeland could emerge 
        if Russian government intentions regarding how it manages its 
        own terrorist threat changes in certain ways. What do I mean? 
        My previous point suggests that expectations of cooperation 
        from Russia to help contain threats that we had identified as, 
        at least to some extent, mutual in the past are likely to be 
        disappointed. A far more acute danger for the United States 
        would emerge, however, if the Russian government decided, both 
        for reasons to contain the threat of Jihadist-inspired 
        terrorists committing terrorist acts on Russian territory and/
        or to asymmetrically punish the United States, to be a 
        facilitator for attacks on the U.S. homeland--always with 
        plausible deniability of course. Alternatively, but with a 
        similar result, could we imagine that Moscow and Tehran could 
        collude to direct other Islamic-inspired (i.e. non-Salafi 
        Jihadists) terrorist networks to wreak havoc on the U.S. 
        homeland out of mutual interests to asymmetrically punish the 
        United States?
    In conclusion, I am virtually certain that the problems in the 
Northern Caucasus to some degree have already increased the threat to 
the U.S. homeland. Although we do not know or understand everything 
that transpired between the act of the Tsarnaev brothers to set off the 
bomb at the Boston marathon a year ago and their links and interactions 
with groups and individuals in the Northern Caucasus, for me this 
terrorist act indisputably demonstrated that in some form what is going 
on in the Northern Caucasus increases the overall threat assessment for 
the United States. The confluence of the on-going Syrian imbroglio, the 
Iranian nuclear problem, and the dramatic worsening in U.S.-Russia 
relations that has no end in sight is certainly increasing the threat 
to the United States. There are clear links from the problems in the 
Northern Caucasus to this threat--but they are not the only reason that 
Russia's position could very significantly increase the threat to the 
U.S. homeland.
    This brings me to my final point that revolves around the 
psychology and potential intentions of Vladimir Putin and, more 
ominously, those around him who may have much darker motivations and 
intentions. Mr. Putin has been underestimated by Russian as well as 
foreign elites, virtually always to their regret, since he emerged on 
Russia's national political stage in 1999. Undoubtedly, this is a 
phenomenon that he has encountered and manipulated to his benefit since 
his youth. Americans, but not only Americans, have also deeply 
underestimated the national psychological trauma that the collapse of 
the Soviet Union constituted for Vladimir Putin and tens of millions of 
other Russians. We need to conceptualize the Russian Federation as 
continuing to endure something akin to Post-Traumatic Stress Disorder 
(PTSD). Mr. Putin resonates so well with the majority of Russians 
because he taps directly into this rich psychological vein. I do not 
pretend to know much about psychology, but I do know that if PTSD is 
not treated its symptoms get worse, not better, over time. As a 
starting point, I would recommend to our President to refrain from 
publicly taunting Mr. Putin (as he did in Brussels last week), and 
caution other American politicians and officials from doing the same. I 
would also recommend that the President and other officials refrain 
from revealing in public to Mr. Putin and others around the world what 
are our deepest fears that keep us up at night. In addition, I urge all 
to carefully read the speech Mr. Putin gave to the Federal Assembly \2\ 
on March 18 because it is possible that historians in the future may 
mark that moment as the tipping point of Weimar Russia into a fascist 
state.
---------------------------------------------------------------------------
    \2\ Vladimir Putin, ``Address by President of the Russian 
Federation,'' Kremlin.ru, March 18, 2014, accessed March 29, 2014, 
http://eng.kremlin.ru/transcripts/6889.

    Mr. King. On that encouraging note----
    Mr. Kuchins. Yes!
    Mr. King [continuing]. Thank you. Thank you, Dr. Kuchins, 
for your testimony.
    Mr. Kuchins. There is the bad news.
    Mr. King. In view of the schedule, I think we will have a 
chance to get through most of the hearing. When you are talking 
about the terrorist jihadist network in the Caucasus, are there 
any ethnic or geographic differences which would split them? Or 
does the Islamist theology, or dogma, unite them?
    Mr. Hahn. Yes, okay. It is a complicated story. There was a 
split in August 2010 involving the majority of the Chechen 
emirs from Emir Umarov and the rest of the Caucasus Emirate. 
However, it was not based on ethnicity, per se, and it was 
certainly not based on any rejection of the Salafist takfir's 
goal of creating the caliphate, as the splitters themselves 
stated explicitly. It was more a result, I believe, of 
competition between the different networks, right?
    So if you have a--the Chechen network is based on the 
Chechen Republic, the Dagestani network is based on the 
Dagestani Republic. The Dagestanis were on the rise in terms of 
the number of attacks and becoming more prominent. The kadhi, 
the Sharia court judge of the Caucasus Emirate was a Dagestani. 
So there was a certain sense among the Chechens that they were 
getting--they were moving on to this--they were being pushed 
aside, essentially, within the movement. That is what drove it.
    So in the--so there is not really inter-ethnic tensions, 
per se. There is tension between networks. The overriding 
ideology is anti-ethnic; that is, they don't believe--it is 
sort of like the communist ideology, right? They don't believe 
in ethno-national compartments, right? They believe in an 
overriding ideology that unites all Muslims. So if you--
assuming that your Islamic faith complies with their view of 
Islamic faith. So ethnicity is something to be put on the 
second plane.
    Mr. King. Okay. Mr. Roggio.
    Mr. Roggio. Yes, I agree with what Dr. Hahn had said. I 
think their ideology ultimately resolved that dispute, that 
split that existed in 2010. To amplify the point that he made 
that they look to be inclusive, they even have recently stated, 
with the Russian invasion of the Crimea, that they were 
permitting any jihadists in the Crimea to fight alongside--if 
any--if fighting did begin against a Russian occupation, they 
permitted fighters to join alongside what they would consider 
to be secular fighters in order to punish the Russians.
    So they are--I think we are seeing this in Syria, as well, 
the al-Qaeda. They are trying to be a little bit more 
inclusive. I--that doesn't make them more moderate. It only 
makes them more dangerous.
    Mr. King. Dr. Kuchins.
    Mr. Kuchins [continuing]. The vast majority of Muslims in 
the Northern Caucasus, and the Russian Federation at large, of 
course, are not global jihadists. There is, I think however, 
quite serious ethnic or national competition, to some extent--
that is maybe not the right way to phrase it--amongst different 
strains of Muslim thought. I mean, in Dagestan, for sure, you 
have the--probably the oldest and the deepest and the most 
sort-of serious school, I think, of Islam within the Northern 
Caucasus.
    If you go back historically to elsewhere in the Russian 
Federation, you go to the Volga region--to Tartarstan, 
Bashkidistan--they also have extremely rich and deep tradition 
in their interpretation of the Koran and Muslim practices. In 
other places, Chechnya and the, you know, the understanding of 
the Koran would be considered, I think, by many serious 
scholars, of which I am not of this, quite superficial and, you 
know, sort of less significant in ways.
    Not significant--not less significant for the purposes of 
global jihad, but sort of in the pantheon of comparative Muslim 
religious life.
    Mr. Hahn. Can I just qualify one thing I said in my 
remarks?
    Mr. King. Sure.
    Mr. Hahn. That split that I mentioned actually was 
overcome, right? These Chechen emirs returned to the Caucasus 
Emirate, and that is evidence in and of itself that they didn't 
reject the global jihadi goals of the Caucasus Emirate.
    Mr. King. My time is almost expiring. Could each of you 
give a brief answer, if possible, as to why IK or any of the 
other groups was not successful in attacking the Olympics?
    Mr. Hahn. I can outline three reasons, basically. One 
potential reason is, depending on the timing, it was the death 
of Umarov. Because he basically controlled a group called the 
Riyad us-Saliheyn Martyrs Brigade that would have carried out 
suicide bombings to attack Sochi or around Sochi or some--at 
the time of Sochi. The other was very intensified 
counterterrorist operations in which, of course, the Russians, 
as usual, violated human civil rights on occasion.
    But they also targeted the correct spot, and that was 
Buinaksk in Dagestan where there was a very dangerous cell 
involving ethnic Russians who had become mujahedin. Third was 
the exodus of fighters to Syria--the most capable, the most 
fervent, fighters, mujahedin and Caucasus Emirate--because of 
the lack of capacity and the repression in the North Caucasus 
are leaving Syria, where they can operate more openly and more 
effectively.
    Mr. King. Mr. Roggio.
    Mr. Roggio. Yes, I think the--one, the Russians laid down a 
significant security blanket, that was quite effective and 
multilayered, limited their capacity to conduct attacks. 
Second, I agree with Dr. Hahn. I think the exodus of fighters 
from the region to Syria certainly took--you know, it limited 
their capacity to focus and conduct attacks.
    Mr. King. Dr. Kuchins.
    Mr. Kuchins. I would agree with what Gordon and Bill just 
said. The honest answer, though, is that I was surprised that 
there wasn't an attack, either in Sochi itself or somewhere, 
elsewhere in the Russian Federation, particularly after the two 
successful attacks in Volgograd in late December. So it appears 
that they decided to keep their powder dry. The problem is not 
going away.
    Certainly, the most recent act by Russia in Crimea and the 
Crimea--there, for the Crimean Tartars is only gonna add more 
fuel to their furor. They are going to--they are gonna come 
back. The problem is not going away.
    Mr. King. The Ranking Member, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. You know, I have 
often heard Vladimir Putin characterized as being more tactical 
than he is strategic. He seems to be appealing to Russian 
nationalist aspirations to somehow reconcile the collapse of 
the Soviet Union. Dr. Kuchins, you had indicated that the Obama 
administration underestimates Caucasus Emirate as a factor in 
Putin's involvement or support in Syria. Can you collaborate on 
that?
    Mr. Kuchins. I have been struck, over the past 3 years--
particularly if you go back to the reactions to the 
administration or our former ambassador to the United Nations, 
Susan Rice, former Secretary of State Hillary Clinton--to their 
surprise that the Russians did not vote with us on the 
sanctions against Syria in the the U.N. Security Council. I am 
mystified as to why they were surprised. There should have 
been--there was no indication whatsoever that the Russians 
would ever vote with us on sanctions against Syria.
    But what really struck me subsequently was the way we, 
they, kind-of castigated the Russian position in moral terms, 
in some kind of moral degradation. I think rather than trying 
to look a little bit more seriously into the substantive 
reasons as to why the Russians have not been with us on Syria. 
For me, if you look at them, I don't find it very difficult to 
come up with a series of reasons that make pretty good sense in 
the Russian context, in the Russian context of their interest, 
and they are not simply about just blocking the United States' 
interests.
    They're not even--certainly, the desire to prevent, you 
know, military regime change is an important factor for the 
Russians. But even that, I think, is not right at the heart of 
the matter. We could never answer to the Russians, effectively, 
what would happen if Mr. Assad goes? Can you explain to me why 
it would be more stable in the region if Mr. Assad goes? That 
was the question from the Russians, and I don't think that we 
could ever give them a satisfactory answer.
    Then subsequently, when the Russians see what happened in 
Egypt, when they see what happened when they saw what happened 
in Libya, it only confirmed what were their preconceptions 
going in that this Arab Spring and this wave of democratization 
in the Middle East would result in greater instability and 
danger.
    Mr. Higgins. But, you know, it seems--there was a debate 6 
months ago here about authorizing the administration to use 
military force in Syria if they determined that was necessary. 
I think a lot of the concern at that point was, you know, this 
was really not, in Syria, a fight for freedom and democracy. It 
was really a fight for power. In that part of the world, which 
is highly pluralistic--you know, minorities are aligning 
themself with Assad for one reason, survival.
    Because, you know, in that part of the world if you are not 
on top you get slaughtered. You know, the one thing that wasn't 
coming from the administration at that time, they were trying 
to use 100,000 people being killed because of chemical weapons 
in Syria. Well, the opposition, the best fighters--and I think 
it has been identified here--were all al-Qaeda affiliates, 
including the Caucasus Emirate. You know, they were beheading 
people. So you can choose your own demise, I guess.
    But, you know, this is what makes that situation, I think, 
the larger situation in that part of the world complicated. To 
find the right entry point if, in fact, there ought to be one. 
Because, you know, a great book by Marwa Mawasher, ``The Second 
Era of Awakening,'' he argues this, that without pluralism in 
the Middle East, in that region, you are never gonna have peace 
and stability. Because it is not, again, a fight for freedom or 
democracy, regardless of what these revolutions, you know, 
express to be their objective. What you really have is 
minorities afraid that, you know, if Assad goes they will be 
next to be attacked.
    Because, as we know, Syria is about 75 percent Sunni, and 
Sunnis take control. This is the problem that we have made in 
Iraq. You know, Nouri al-Malaki is pushing Americans away 5 
years ago, saying, ``Well, we have other allies in the 
region.'' He was talking about Ahmadinejad in Iran. Then, 
because of his failure to embrace the Sunni population, he has 
got a Sunni problem, he has got an al-Qaeda problem. So now he 
is back to the United States, saying, ``We need financing for 
our arms because we have to fight this problem.''
    Who caused the problem? You did. I think that, you know, 
permeates throughout the Middle East. I just think this is 
another iteration of the manifestation of that inability to 
embrace minorities. To convey to them, you know, life ain't 
great but we are not gonna slaughter you. That is a big problem 
here.
    I yield back.
    Mr. King. The gentlelady from Texas is recognized.
    Ms. Jackson Lee. Let me thank both the Chairman and the 
Ranking Member for their courtesies in this committee. I sit on 
the full committee and serve on another committee, but this is 
a crucial moment in our history.
    Let me just go to Dr. Hahn very quickly. You mentioned 
Azerbaijan. I just want to know if--Azerbaijan is leaning as 
far as they can, in my belief--these are my words--toward 
Europe. What are you saying about the terrorist presence, 
Chechen presence, in Azerbaijan? Or is it on the border, or--
because don't you think that they are certainly a bright light 
in the region? Dr. Hahn.
    Mr. Hahn. One of the problems is that Azerbaijan is a 
transit route for some of the mujahedin going from the North 
Caucasus to Syria and back. Since they are predominantly 
Sunnis, and they are fighting the Shiites in Syria, there is a 
possibility, certainly, that they would try to carry out 
attacks against Shia-dominated Azerbaijan. Also, in the past 
there was----
    Ms. Jackson Lee. In their travels going through, but not 
that Azerbaijan would be coddling any of----
    Mr. Hahn. No, no, no, no. No, I didn't mean to say that. 
The other issue is that there have been incursions from the 
north, from Dagestan into Azerbaijan, by Caucasus Emirate 
mujahedin. The other issue is that there was a Dagestani plot, 
Dagestanis from the Caucasus Emirate, to attack the Eurovision 
games in Baku in 2012. It was a Mumbai--the plot was a Mumbai-
style plot in which they were gonna try to assassinate the 
president, they were gonna try to attack the Eurovision music 
festival, bomb a couple of hotels, then retreat from the 
capitol and then set up an insurgency in the mountains.
    That was uncovered in spring and summer 2012. So there is a 
Sunni--there has been a pattern of a potential Sunni threat to 
Azerbaijan.
    Ms. Jackson Lee. Well, they are in the region.
    Mr. Hahn. Right.
    Ms. Jackson Lee. They remain under threat. Let me move 
quickly, because of the time--and thank you very much.
    Mr. Roggins, as I note, the North Caucasus do not have a 
dominant ethnic Russian. There is a multiple ethnicities there. 
Are they in the line of Russia's eyesight? Are they in a 
position to fend Russia off, because there is not a dominant 
political body that wants to associate with Russia? How will 
Russia--how do you perceive that playing out? Rebel fights or 
terrorist fights? Russia leaving them alone? Russia wanting 
them to go away? How do you perceive that?
    Mr. Roggio. Well, currently the Caucasus Emirates really is 
the only opposition to the Russians. The rest of the--Dagestan, 
Ingushetia, Chechnya, they are Russian republics with their 
governments. The fight in Chechnya really was the insurrection 
there, and that has largely been put down and just replaced by 
the Caucus Emirates current jihad against the Soviet regime. I 
am sorry, the Russian regime.
    Ms. Jackson Lee. So it is a standoff in that----
    Mr. Roggio. Yes. You know, look, this has been going on for 
years. It has been ebb-and-flows. Right now, the Russians seem 
to have the upper hand. But as we have seen, they have declared 
the Caucus Emirates dead, or their predecessors dead in the 
past. They have come back and regenerated their forces. 
Conducted attacks even inside Moscow. You know, so it is an 
ebb-and-flow, but this is a persistent group with an ideology 
that appeals to a certain segment of the population and it is 
not going away.
    Ms. Jackson Lee. Thank you.
    Is it Mr. Kuchins?
    Mr. Kuchins. Kuchins.
    Ms. Jackson Lee. Kuchins. Thank you very much. Well, there 
is a lot that I want to ask you. But let me just quickly say, 
as I looked at the comments that the President made--might I 
take issue a little bit with taunting--I think it was the 
President who gave a little leeway for Putin in terms of making 
negative comments prior to the interaction on Ukraine just in 
trying to keep relationships. I think if it was anything, the 
President gets criticized for either not being strong or being 
strong.
    Putin has brought his problems on himself. We didn't 
contribute to Soviet Union's demise. The people rose up and the 
Cold War ended and independent-minded individuals decided to 
move into their own sovereign nation. So the question for us, 
for Putin, is whether or not he will live in the world order. 
Which is we have sovereign nations and we don't necessarily 
take well to people invading other countries. Which is Ukraine, 
and Crimea which is associated with Ukraine.
    My question to you, then, is Russia has its own share--
affairs on terrorism, either inside the country or around its 
borders. Isn't that a full plate for it to then be engaged in a 
full-scale war with the West? When I say that, through 
promoting or coddling terrorists so that they can launch from 
Russia. Their own people are under threat, their own people are 
not stable. If we continue the sanctions, if they continue to 
look as if they are gonna move 40,000 to 80,000 troops into 
Ukraine, I can't imagine that a combination of Western minds--
European Union, the NATO coalition--is not going to have to 
find a way to be very strong with it if it starts with 
sanctions.
    Mr. Kuchins. The challenge that we face, and particularly 
our President faces, I think, is really trying to understand 
the mind of Vladimir Putin and the calculations and the 
framework that he has. They are very, very, very different. I 
think if we look at Russian history, Russians have shown a 
remarkable capacity to endure incredible economic hardship and 
deprivation. To do things that we would consider absolutely 
inconceivable because of the hardship that they would entail 
for things that have been decided that, you know, are to 
achieve the greater good.
    So we have to be very cautious in applying, I think, our 
mindset on Mr. Putin and his elite. The second thing, and this 
is what has been very, very disappointing to me in the United 
States' response to Crimea, is that I think there has been a 
deep mismatch in rhetoric and action. It began on the very 
first day, on February 28. It really simply hasn't been, it 
hasn't been corrected effectively. I am afraid that we may--
``we,'' the United States of America--our leadership may not 
understand, I think, the magnitude of the danger that Mr. Putin 
potentially could present.
    You know, just for example, there was an opportunity last--
2 weeks ago in Brussels, where the President made a speech. 
That was to be the speech that was gonna be the--kind of the 
hallmark of the trip. I can't tell you how disappointed I was 
personally with the speech. Because the speech was all about 
ideals, platitudes, values kind-of at 30,000 feet. There was 
not one thing said about what the United States and the 
Europeans can, should, will do to support Ukrainian 
sovereignty.
    So I completely agree with you that we have to focus like a 
laser beam on supporting Ukrainian sovereignty. For the 
Ukrainians and Kiev, and around the country, who have no 
interest in joining the Russian Federation, I am sure when they 
heard that speech they cried. When they read it in Moscow they 
laughed. We have--if we create this perception, too-permissible 
of an atmosphere, Putin is gonna further make a deep, deep, 
deep, miscalculation. I think he is making miscalculations, and 
ultimately--to put in vernacular terms, ``screwing himself 
over.''
    But it is the collateral damage that he could cause in 
doing so. The Soviet Union and Mr. Gorbachev went out with a 
whimper. I don't see that happening with this guy. There is no 
question in my mind that whether he invades Eastern Ukraine or 
not, I mean, whatever he and the Russians are doing it is 
ultimately at the goal of depriving Ukraine of its sovereignty. 
Fundamentally depriving Ukraine of its sovereignty, that is the 
goal.
    That goal is not gonna stop. He is going to be relentless 
about it. He is gonna use every possible trick in the KGB 
Russian----
    Ms. Jackson Lee. Kitchen.
    Mr. Kuchins [continuing]. Historical--to pursue that. So 
frankly, I would actually like to see--to me, what the strength 
right now is to showing, not showing but doing, providing 
Ukrainians the capability--and they have shown a remarkable 
lack of capability over the last 10 years themselves. They have 
created the problem themselves because of their dysfunctional 
governance, the total failure of the Orange Revolution 10 years 
ago, unfortunately.
    Hopefully, you know, as Samuel Johnson said about the 
imminence of the beheading will focus the mind. That Ukrainian 
elites will realize that, literally, their independence and 
their sovereignty is at stake if they don't get it together. 
But they need help on this, from us on that. The change, the 
calculation, in Mr. Putin's mind that we and the Europeans are 
not gonna roll over. There is nothing Mr. Putin would like to 
do better than to expose the Transatlantic Alliance as a 
complete sham.
    There is nothing Mr. Putin would like to do more, and it is 
all there in that March 18 speech, to basically undo the 
covenants, the agreements of the post-Cold War order. Because 
in his view and the views of the people around him they are 
unfair, they are unjust to Russia. They took advantage of 
Russia's weakness, et cetera, et cetera, et cetera.
    Mr. King. Thank you, Dr. Kuchins.
    Ms. Jackson Lee. I yield back to the gentleman. Thank you.
    Mr. King. Time is running down on the vote. I have one 
question for Dr. Hahn, if I could. If you would try to limit 
your answer to about 90 seconds, and then any written 
supplement you want to provide would be greatly appreciated.
    In your testimony you mention that the new emir seems to be 
more aggressive as far as a global jihad. Then we have the 
factor of more and more people from the Caucasus going to 
Syria. As far as a threat to the United States, the homeland, 
are there any red flags we should be looking for? Is there 
anything that you would look out there as a warning signal to 
us that we should be on the lookout over the next 6 months, 
year, 2 years?
    Mr. Hahn. Well, if the emir or someone close to him started 
to emphasize the United States more in his rhetoric that would 
be one signal. I think most of these things are gonna be hard 
to identify. It is gonna be--you know, it is gonna be North 
Caucasus mujahedin getting involved in the kind of camps that 
Bill--William Roggio described previously. Because we have had 
this report of al-Qaeda, right, planning to set up camps 
specifically in Syria for the purpose of attacking the United 
States in Syria.
    So it is really indirect. It is the threat from the 
Caucasus Emirate is--for the present is indirect in that it is 
part of the global jihadi revolutionary movement. So it is very 
much likely to be involved in any plots organized through Syria 
by al-Qaeda or other groups. Because they are gonna try to have 
an international flavor to any plot. A good model might be the 
2000 plot to hijack a plane in Frankfurt, where the plan was to 
have a Pakistani, I believe an Arab of some nationality, and a 
Chechen.
    The Chechens eventually pulled out of that plot, and it 
never came off. So I think we are gonna see that kind of a 
model more in the global jihad.
    Mr. King. Time is running down to vote. If either of you 
would want to add to that, Mr. Roggio, Dr. Kuchins?
    Mr. Roggio. Just real quick. Yes. Yes, sir. Thank you. Real 
quick, the camps. One of the key things, this has been al-Qaeda 
historically has done this. They use those camps to train for 
the local jihad, and they siphon off a small amount to conduct 
its--what they call its ``external operations.'' The question 
is--is al-Qaeda interested in that right now to conduct attacks 
on the U.S. homeland or U.S. interests abroad? Or are they 
interested in focusing all their efforts in--because they are 
being quite successful in their local insurgencies in Pakistan, 
Afghanistan, Iraq, Syria, Mali, et cetera.
    That is what we don't know right now. But the fact that 
this camp run by the Caucasus Emirates was disclosed, two other 
camps run by the al-Nusra Front, which is al-Qaeda's official 
affiliate. They are in action and they look just like the 
videos you used to watch back in the 1990s of--you know, of al-
Qaeda fighters going through the motions. That is really what 
disturbs me the most. I think we need to keep an eye on these 
camps that are out there and, perhaps, take some direct action 
if needed.
    Mr. King. Dr. Kuchins, we have about 30 seconds, then I 
have to----
    Mr. Kuchins. Well, the one major takeaway I took from the 
Boston bombing is that we really need to raise our awareness 
level and our monitoring level of, you know, what is happening 
in the Northern Caucasus and jihadists that we know are from 
the Northern Caucasus; where they are traveling, what they are 
doing. It is a level that we look at places like Yemen and 
other countries and regions. That we are at a higher kind of 
risk level for us. I think the Northern Caucasus needs to be at 
that higher level.
    Mr. King. Thank you, Doctor. Let me thank all the 
witnesses. Also thank you for accommodating us with the 
compressed schedule today.
    Unfortunately, the vote schedule was different from what we 
thought it was going to be. But, again, you managed to get an 
awful lot in. If you have any other thoughts you want to give 
us, believe me we would look forward to it. I want to thank you 
for your testimony today, for your cooperation. I also thank 
the Ranking Member for his cooperation in holding this hearing.
    So thank you very much. With that, the meeting stands 
adjourned.
    [Whereupon, at 3:01 p.m., the subcommittee was adjourned.]

                                 [all]

</pre></body></html>
